<html>
<title> - [H.A.S.C. No. 112-21]LONG-TERM READINESS CHALLENGES IN THE PACIFIC</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-21]

 
                     LONG-TERM READINESS CHALLENGES
                             IN THE PACIFIC

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 15, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
65-588                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  
  


                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Dave Sienicki, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, March 15, 2011, Long-Term Readiness Challenges in the 
  Pacific........................................................     1

Appendix:

Tuesday, March 15, 2011..........................................    31
                              ----------                              

                        TUESDAY, MARCH 15, 2011
             LONG-TERM READINESS CHALLENGES IN THE PACIFIC
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Representative from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Alles, Maj. Gen. Randolph, USMC, Director, J-5, Strategic 
  Planning and Policy, U.S. Pacific Command......................     9
Pfannenstiel, Hon. Jackalyne, Assistant Secretary of the Navy, 
  Energy, Installations and Environment..........................    11
Schiffer, R. Michael, Deputy Assistant Secretary of Defense, 
  Asian & Pacific Security Affairs, East Asia....................     5

                                APPENDIX

Prepared Statements:

    Alles, Maj. Gen. Randolph....................................    50
    Forbes, Hon. J. Randy........................................    35
    Pfannenstiel, Hon. Jackalyne.................................    58
    Schiffer, R. Michael.........................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    77
    Mr. Forbes...................................................    77

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    84
    Mr. Forbes...................................................    81
    Mr. Palazzo..................................................    85
             LONG-TERM READINESS CHALLENGES IN THE PACIFIC

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                           Washington, DC, Tuesday, March 15, 2011.
    The subcommittee met, pursuant to call, at 2:00 p.m. in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Good afternoon and we are calling this meeting 
of the Readiness Subcommittee to order. Several of my members 
will be coming in in a few minutes, so just to let our 
witnesses know they are in other meetings right now in 
subcommittees that are overlapping, and also we expect to have 
a vote probably about 2:30. So we may have to break briefly and 
go to that vote.
    We want to welcome our witnesses here. We think this is 
going to be a crucial hearing for us on our readiness in the 
Pacific region. We have three witnesses that bring a great deal 
of experience and expertise to this issue, and we welcome them 
here today.
    First of all, we have Mr. Michael Schiffer, the Deputy 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs, East Asia. Michael, thank you for being here. We are 
looking forward to your testimony with our members.
    We also have Major General Randolph Alles. General, thank 
you. The General is the Director of J-5 for Strategic Planning 
and Policy in the U.S. Pacific Command. General, as always, we 
appreciate your service to our country and we thank you for 
your willingness to be here today and to lend your expertise to 
the subcommittee.
    And finally, we have the Honorable Jackalyne Pfannenstiel, 
and thank you for being here, Jackalyne. She is the Assistant 
Secretary of the Navy for Energy, Installations and 
Environment.
    This subcommittee is unusual in that it is probably one of 
the most bipartisan subcommittees in Congress. We are all 
trying to look to make sure that we have answered the question, 
``Are we ready?'' And that is the purpose of the hearing.
    My partner in this endeavor and the ranking member from 
Guam is Madeleine Bordallo, and I would like to defer at this 
time to Madeleine for her opening remarks.
    Ms. Bordallo.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 35.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A REPRESENTATIVE FROM 
        GUAM, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and I 
appreciate your willingness to hold this hearing on long-term 
readiness challenges in the Asia-Pacific region, which is 
certainly very important to me. As we have heard from witnesses 
in our previous hearings and briefings, this area of the world 
requires our focus and our attention.
    Before I begin with my statement, I would like to recognize 
the people of Japan and ask that we keep them in our thoughts 
and prayers as they recover from the horrific tragedy of last 
week's earthquake and tsunami. These unfortunate events, 
however, underscore the importance of our alliance and our 
strong relationship with the Japanese people. Our military 
forces in Japan are helping with search and recovery efforts. 
Further, other civilian agencies such as the USAID [United 
States Agency for International Development] and FEMA [Federal 
Emergency Management Agency] and the Nuclear Regulatory 
Commission are assisting Japan.
    In the wake of this unfortunate tragedy, we must continue 
to focus our military resources on this important region of the 
world. Nearly 42 percent of all U.S. trade occurs with Asian-
Pacific nations, which make this area critical to our national 
economic security.
    And I applaud this Administration for its greatly increased 
focus on the Asia-Pacific region. To highlight this point, one 
of the first major actions of the Obama Administration was the 
signing of the so-called Guam International Agreement by 
Secretary of State Hillary Clinton and then-Foreign Minister 
Nakasone.
    However, despite greater focus, we must continue to assess 
the readiness of our forces to protect our economic, political 
and other strategic interests in this vital region.
    One of the most important strategic matters is continuing 
to fulfill the United States' obligation under the Guam 
International Agreement, which is based on the 2005 U.S.-Japan 
Alliance Transformation and Realignment for the Future 
Agreement. This agreement outlines the numerous realignments of 
military personnel in Japan.
    Of the greatest impact to Guam is the construction in 
northern Okinawa of a replacement facility for Marine Corps Air 
Station Futenma. This new facility will allow the transfer of 
more than 8,000 marines and nearly 9,000 family members from 
Okinawa, Japan, to Guam. This committee has been supportive of 
this strategic realignment in the past, and I hope that we will 
remain so in the future.
    I ask our witnesses today to make clear to the committee 
the significance of tangible progress by Japan toward the 
Futenma Replacement Facility and what commitments the United 
States must make in the meantime to achieve the goal of moving 
the Marines to Guam.
    While dealing with the challenges of the military buildup 
on Guam, we must not overlook the strategic importance of 
Guam's location and the value of the freedom of action from 
bases on Guam. Just this past weekend, several Global Hawks 
based at Anderson Air Force Base, Guam, conducted sorties over 
Japan to assist the region with mapping the destruction caused 
by the massive tsunami. Our strategic location in the Pacific 
can never be overstated.
    The Governor of Guam, Eddie Calvo, recently signed a 
Programmatic Agreement with the Department of Defense that 
outlines a process for consultations to ensure the preservation 
of certain historic sites and paves the way for spending 
military construction funding authorized in previous fiscal 
years. The Administration has budgeted for certain 
infrastructure support that will help to improve our quality of 
life on Guam and at the same time enhance the military mission.
    Further, the U.S. Government has been successful in 
obtaining financing for certain other improvement projects on 
Guam that are needed for the buildup to be successful. However, 
I remain concerned about the placement of a proposed firing 
range on Guam and would ask today's witnesses to explain to the 
committee the strategic necessity of the range site as 
currently proposed.
    Many have questioned whether alternatives to the Route 15 
ranges were adequately vetted. There have also been questions 
raised as to whether the Navy properly examined alternatives 
that would keep the ranges within their existing footprint, 
thus negating the need to pursue leasing Government of Guam 
land adjacent to Route 15.
    While I respect the ongoing process wherein the Department 
of Defense will conduct discussions with the Governor over the 
Route 15 range location, I would caution that it may be very 
difficult for DOD [the Department of Defense] to reach a deal 
that will be approved by the Guam Legislature, who ultimately 
approves the leasing or the sale of Government of Guam lands. I 
continue to urge DOD to consider alternatives such as more 
robust training capability on Tinian, to include individual 
skill qualifications.
    Finally, it is important to reiterate, as I have in 
previous hearings, that we must keep in mind the threats we 
face in this region of the world. China's secretive military 
buildup coupled with North Korea's continuing nuclear ambitions 
are certainly at the forefront of our strategic posture in 
Asia. However, we must not lose sight of other nontraditional 
threats in this region, such as the southern Philippines or 
southern Thailand.
    I hope that the witnesses will discuss our strategic 
posture in the Asia-Pacific region through both a military 
asset framework as well as a soft power framework. This 
Administration's focus on military-to-military engagements is 
very important to establishing greater cultural understanding 
and foster stability in our region.
    In particular, the mil-to-mil [military-to-military] 
efforts with China I believe can help us avoid 
misunderstandings that will lead to far greater concerns in the 
future.
    So ladies and gentlemen, I look forward to the testimonies 
from each of you as I yield back my time. Thank you, Mr. 
Chairman.
    Mr. Forbes. Thank you, Madeleine, for those remarks.
    And as we discussed prior to the hearing, I ask unanimous 
consent that we dispense with the 5-minute rule for this 
hearing and depart from regular order so that members may ask 
questions during the course of the discussion. I think this 
will provide a roundtable-type forum and will enhance the 
dialogue of these very importance issues.
    Without objection, that is so ordered.
    And just so the witnesses know, we have explained it to all 
three of you, we do things a little differently in here. We try 
to really get at some issues, and rather than have 5 minutes of 
staccato questions, if one of the members wants a follow-up 
question, the chair will recognize them and we will try to do 
that to keep the dialogue going.
    The other thing I ask the members for is permission to 
submit for the record a written statement that I prepared and 
any of the members that have written statements feel free to 
submit those for the record.
    Without objection, all the statements will be entered in 
the record.
    Ladies and gentlemen, I am going to ask you to do now what 
I am going to do myself, and that is take my written remarks 
and put them aside. For these kinds of hearings normally what 
we do is this. You submit to us written statements, which you 
have done very admirably, we thank you for that. We read your 
statements, and so we appreciate the time that you put in those 
statements and the fact that you delivered them to us. Then 
oftentimes what we have is our witnesses will take about 5 
minutes each and they give us a regurgitation of what they have 
put in the written statements, but we have already read the 
written statements so we don't need to do that.
    And so I want to change it a little bit today and I want 
you to take the written remarks that you might have and just 
put them aside for a moment. If you want to submit them for the 
record, we will read them. But here is what I want to pose to 
you, that you can start and we will give you each 5 minutes or 
so to have a bite at this question.
    The goal of this committee is to ask a very simple 
question, ``Are we ready?'' And over and over again, our 
witnesses come in and the response that they rightly give us 
back is, ``Ready for what?'' We should be having a strategy 
that we can use as a yardstick so that we can compare where we 
are against that strategy. We try to do that in the Quadrennial 
Defense Review and the National Defense Strategy. But as you 
know, more and more, there is a consensus building that the 
Quadrennial Defense Review and the National Defense Strategy is 
driven a lot by budget and bureaucratic desires simply to 
reinforce what they are already doing. In fact, when the 
independent panel was created to look at the QDR [Quadrennial 
Defense Review] that was the exact conclusion that that 
bipartisan group determined. And they used a word like ``train 
wreck'' if we continue doing what we are doing. So we have to 
kind of reach to get the strategy and build the yardsticks that 
we are comparing our military to to make sure that, in fact, we 
are ready.
    Just last week we had our Deputy Chiefs sitting right where 
you are sitting, and where Mr. Schiffer is sitting we had the 
Deputy Chief for the Marine Corps; Jackalyne, where you are 
sitting, we had the Deputy Chief for the Army. And the two of 
them agreed on one thing. They said the greatest component that 
they could have for readiness was time. They needed to be able 
to react quickly and as quickly as they possibly could.
    So ladies and gentlemen, the question I have for you is 
this: If we look at the Pacific, and we recognize that we may 
not as a committee have a strategy to use as a yardstick, one 
of the things we know is that the most probable conflict we 
would have may not be with China, but if we ever had a 
conflict, probably the most devastating conflict we would have 
with China. None of us want that conflict. We hope it doesn't 
take place. But when we are looking for readiness, we want to 
make sure that we are prepared. Because oftentimes, if we have 
a lack of capability, that determines decisions that players 
make in that area.
    So the question I would like for you to start within your 5 
minutes or so today is this. We know if we don't have a 
strategy that we can get our hands around, we know that from 
our readings China does. One of their strategies, we know, is 
their Anti-Access/Area Denial strategy that they have been 
trying to implement. A year ago, Secretary Gates directed the 
Air Force and the Navy to develop an Air-Sea Battle concept to 
address that Anti-Access/Denial problem.
    The first question I would like for you to respond to is, 
is that concept ready? Do we have it? And are we prepared in 
our readiness to implement that strategy? If not, when is it 
coming?
    The second thing we know is my dear friend sitting to my 
left not too far from her home she has been willing to take me 
and she show me those huge fuel reserves that are sitting there 
on Guam. We know that one of the strategies as part of the 
denial strategy that China has would be able to do something to 
those fuel reserves.
    So the other question I have for you to be responding to is 
if something happened to those fuel reserves, how long would it 
take us to replace them and where would that replacement have 
to come from?
    And then the third thing is, if we look at China's 
strategy, it is very clear from their writings that one of the 
things they believe is that the United States can't endure a 
long conflict, that we need to have short conflicts, and they 
are prepared for a long one.
    The question for you is, if we had a conflict and that 
conflict had a high-intensity operations that lasted more than 
a month, is our industrial base capable of supporting that kind 
of long-term conflict and, if so, for how long?
    I know that is a lot. But it kind of sets the parameters 
that we need to be looking at for readiness in the Pacific.
    And so with that, Mr. Schiffer, I am going to ask you if 
you would start whatever response that you might have to that 
and feel free to interject anything else that you would like to 
in that.

STATEMENT OF R. MICHAEL SCHIFFER, DEPUTY ASSISTANT SECRETARY OF 
      DEFENSE, ASIAN & PACIFIC SECURITY AFFAIRS, EAST ASIA

    Mr. Schiffer. Well, thank you very much, Mr. Chairman. And 
thank you, Ranking Member Bordallo, and the other distinguished 
members of the committee, and thank you for the privilege of 
allowing us to appear before you today.
    Let me try to provide you in my opening comments with the 
strategic context that underlies our approach to the Asia-
Pacific region and how we are preparing our presence and 
pursuing our presence and our policy in the region, and I think 
in so doing I will be able to shed some light on the questions 
that you have raised.
    Before I begin my comments, however, I want to join Ranking 
Member Bordallo in reiterating that our thoughts and our 
prayers today are with the people of Japan. I was in Japan last 
week when the earthquake struck, and though I was not near the 
area affected by the tsunami, the magnitude of the earthquake 
in both real and psychological terms was palpable. We are still 
learning the total extent of the devastation, and the United 
States is working side-by-side with the people of Japan, the 
Japanese Government, and the Self-Defense Forces to manage the 
consequences of the earthquake and the tsunami.
    In addition to the humanitarian assistance in helping to 
address ongoing nuclear issues at the Fukushima Daiichi plant, 
U.S. Forces are engaged in helicopter search and rescue 
operations and support from U.S. Navy ships, including the 
Ronald Reagan Carrier Strike Group, are providing services such 
as water purification, medical teams and hospital beds.
    Our forward presence in Japan and throughout the Asia-
Pacific region has allowed us to respond to Japan's urgent 
needs quickly, and we will continue to facilitate rapid 
engagement to provide whatever assistance our Japanese friends 
require.
    You have asked us to address the question ``Are we ready?'' 
and in your comments, Mr. Chairman, you elucidated some of the 
issues that we need to dig into as we address that question. It 
is an important question and one with many facets. And at the 
risk of stating what other witnesses have stated before, I do 
want to be clear from the outset that the Department of Defense 
and our men and women in uniform wherever they may be 
stationed, at home and abroad, are indeed ready to meet any of 
the challenges that we may face in the region in the near-, 
medium-, or in the long-term.
    Our ability to respond rapidly and effectively to provide 
assistance to our Japanese friends is one facet of the question 
``Are we ready?'' and especially the related question of 
``Ready for what?'' It will come as no surprise to members of 
this committee, and as the ranking member pointed out, that the 
Asia-Pacific region is the most dynamic region in the world 
today. It holds over half the world's population, more than $1 
trillion in annual U.S. trade, 15 of the world's largest ports, 
and is home to six of the world's largest armies, China, India, 
North Korea, South Korea, Russia, Japan, and of course our own.
    Over the past six decades, the region has experienced 
extraordinary growth, in large part because of the peace, 
stability, and prosperity that our security presence, our 
robust U.S. military presence, made possible for all states in 
the region. That military presence remains critical to our 
long-term readiness and to ensuring that peace and prosperity 
continue to prevail in the Asia-Pacific region. The United 
States and the Department of Defense remain committed to our 
enduring presence in the Asia-Pacific, and to the investments 
in forces and capabilities necessary for protecting our 
national interests and those of our allies and partners in the 
region, as well as for meeting the full range of potential 
traditional and nontraditional 21st-century security 
challenges.
    I would like to focus for a little bit in getting at some 
of the questions that the chairman raised, focus my attention 
on three particular issues: The rise of China, North Korea, and 
our evolving regional posture. I will keep my comments brief in 
the remaining time that I have, and my written testimony 
provides a more detailed assessment.
    As you know, over the past 30 years, China has transformed 
itself from an impoverished country to the world's second 
largest economy. As its economy has grown, so has its 
capabilities across a range of measures, including its military 
capabilities. President Obama and Secretary Gates have stated 
that the United States welcomes and encourages a strong and 
prosperous China that makes positive contributions to the 
stability, resilience, and growth of the international system.
    We continue to see positive examples of cooperation and 
partnership from China on certain regional challenges. There 
are, however, other areas, such as its military modernization 
efforts, its opaquely defined long-term strategic intentions, 
and questions about the development of its Anti-Access/Area 
Denial capabilities that are causing concern in the United 
States and around the region.
    In this respect, long-term readiness means that the United 
States must continue to work with our allies and partners and 
with China to positively shape China's rise both within the 
Asia-Pacific region and globally. U.S. strategy must be 
flexible enough to anticipate and balance multiple possible 
outcomes and must be able to capitalize on the cooperative 
potential of the U.S.-China relationship while also managing 
the risks inherent in China's rise and that includes the 
investments that the Department is undertaking precisely to 
make sure that we can counter Anti-Access/Area Denial 
capabilities.
    If I can ask the indulgence of the committee to continue 
for a little bit.
    Mr. Forbes. You go ahead, Mr. Schiffer.
    Mr. Schiffer. As China continues to rise and its military 
capabilities continue to increase, both the United States and 
China benefit from having a healthy, stable, and reliable 
military-to-military relationship.
    During the recent state visit by President Hu Jintao, both 
sides agreed on the need for enhanced and substantive dialogue 
and communication at all levels. While we will continue to 
engage in dialogue with the Chinese, we will also continue to 
strengthen our posture, presence, and capabilities in the 
region and to strengthen our alliance partnerships to ensure a 
common view of how the United States can best continue to work 
in and with the region for peace and stability.
    The second issue that I would like to highlight briefly is 
the continuing challenge of North Korean provocations. As 
members of the committee are well aware, North Korea continues 
to be a complicated security threat. In face of North Korean 
provocations, including the sinking of the Cheonan and the 
shelling of Yeonpyeong, the United States and our ally, the 
Republic of Korea, are enhancing our deterrent capabilities and 
so ensuring that we are fully prepared to meet any threat from 
North Korea.
    The United States has drawn ever closer in our bilateral 
relationship with our allies in South Korea and Japan and have 
also seen positive progress in the past year in trilateral 
relations as well.
    Critical to ensuring our long-term readiness to meet a 
North Korean threat is maintaining a forward-deployed military 
posture on the Peninsula. It is our forward presence, 28,500 
strong, that effectively communicates our resolve to defend the 
Republic of Korea and preserve our vital interests in Asia, and 
our regular exercises like Key Resolve and Full Eagle serve to 
enhance U.S.-ROK [Republic of Korea] alliance's ability to 
defend the ROK and to protect the region.
    Lastly, let me address the efforts we are taking to 
implement the Realignment Roadmap and our broader posture moves 
in the region. As you know, the Department of Defense is 
evaluating U.S. global posture on an ongoing basis to better 
position us and our forces to meet the demands of the myriad 
emerging threats and provocations in the region. This subject 
will be addressed in greater detail in an upcoming global 
posture review.
    However, the important point to note for this hearing is 
that the U.S. defense posture in Asia, where Secretary Gates 
has stated that our goal is to maintain or posture in Northeast 
Asia while enhancing it in Southeast Asia, is shifting it one 
that is more geographically distributed, operationally 
resilient, and politically sustainable.
    While the focus on the implementation of the relocation of 
Marine Corps Air Station Futenma has been intense, the United 
States and Japan are working closely together on FRF [Futenma 
Replacement Facility] and on Guam. It is important to note that 
the Government of Japan has publicly affirmed the importance of 
the U.S. alliance, of the U.S. Marine Corps' having forward-
deployed forces on Okinawa and of moving forward with the 
Futenma Replacement Facility at Camp Schwab, Henoko.
    Indeed, events in the region have conspired to remind us of 
all of the importance and the necessity of marine forces in 
Okinawa and the vital role in both deterring potential conflict 
and responding to crisis played by U.S. Forces in Japan, 
including the 3rd Marine Expeditionary Forces in Okinawa.
    This capacity to respond quickly to regional challenges, 
both traditional and nontraditional challenges, rests in no 
small part on the maintenance of rapidly deployable ground 
forces in the region, and we look forward to continuing to work 
with the Government of Japan to move forward with the full 
implementation of the Realignment Roadmap.
    The Asia-Pacific region is one where America has deep roots 
and enduring interests. As the United States looks to the 
challenges, threats and opportunities of the future, the 
Department of Defense remains focused on protecting American 
interests and allies against the range of threats and 
challenges we will face together in the 21st century.
    Thank you for your time. Thank you for your indulgence. I 
look forward to engaging more deeply on some of the questions 
that you raised, and let me turn to my colleagues for their 
comments.
    [The prepared statement of Mr. Schiffer can be found in the 
Appendix on page 37.]
    Mr. Forbes. Thank you, Mr. Schiffer, and again we 
appreciate your expertise and coming here.
    Now Mr. Schiffer did exactly the opposite, though, of what 
I am asking you guys to do. I know it is comfortable to hang on 
to those prepared remarks. But we have read those. What we want 
you to do is try to address the readiness issue. And General, 
maybe you are the perfect person to do that.
    So General Alles, if you would please see if you could 
address those remarks and throw those written remarks away 
because we just want to hear your expertise. We can put those 
in the record. But the time we have got, how are we prepared 
and are we ready to meet those challenges?
    General, thank you for being here.
    General Alles. All right, sir. I will keep my remarks brief 
here. I would ask that the written remarks that I have 
submitted be included in the record.
    Mr. Forbes. And we are including all of your written 
remarks. We appreciate your time in preparing them.

  STATEMENT OF MAJ. GEN. RANDOLPH ALLES, USMC, DIRECTOR, J-5, 
      STRATEGIC PLANNING AND POLICY, U.S. PACIFIC COMMAND

    General Alles. Chairman Forbes and Ms. Bordallo and members 
of the committee, thank you for this opportunity to appear 
today and discuss the readiness challenges here in the Pacific.
    I do want to acknowledge before I continue with my 
responses here my condolences to our very close ally in Asia, 
Japan, as Mr. Schiffer has already mentioned during their 
ongoing trial here, this great earthquake and tsunami. I just 
want you to rest assured the U.S. Pacific Command is doing 
everything in our power to assist the Japanese people during 
this hour of need.
    I also would like to extend my best wishes to 
Representative Giffords and her husband Mark. We hope to see 
her back soon fulfilling her responsibilities as a member of 
the committee.
    I wanted to build on one comment that Mr. Schiffer had made 
as he talked about China and the rise of China, as we consider 
the rise of China. And I wanted to emphasize I had a 
conversation previously with Ms. Bordallo about the importance 
of dialogue between the Chinese and the U.S. sides. Both myself 
and Mr. Schiffer get to occasionally participate in dialogues 
with the Chinese, usually with the PLA [People's Liberation 
Army] is who we talk with, and I think those dialogues are 
beneficial. Yes, I mean they are scripted in a certain degree, 
there is a degree that we tend to hear the same points coming 
back from the Chinese, but the fact that we are able to meet 
and actually have a dialogue together I think is important.
    One of my responsibilities is to function on the MMCA, the 
Military Maritime Consultive Agreement, which is our meeting 
that we have with the Chinese to discuss operational safety in 
the international air space and off the coast of China and in 
the international waters.
    And I think I would comment that I have seen effect out of 
that dialogue. It has done much to ensure that tensions when 
U.S. and Chinese forces interact remain low, and I think there 
is great benefit in the overall dialogue between the two sides. 
Even if sometimes it may just appear to be an exchange of 
talking points, I think nevertheless it is an important 
interchange that we have.
    Turning to the topic of the question on the Air-Sea Battle, 
I would like to just point out a few things about that. It is, 
as you noted, Mr. Chairman, an attempt to address Anti-Access/
Area Denial. I would point out that it is a concept that is 
broader in thinking than just looking at the Chinese situation. 
We are looking at this more broadly across the globe on how 
countries are attempting to deny access to U.S. forces and how 
this might address it.
    I do think there are significant and effective work going 
on currently in near-term initiatives. I would just note we 
have met on several occasions recently with the Under Secretary 
for Defense for AT&L [Acquisition, Technology & Logistics], Mr. 
Carter, and he has made substantial progress in addressing some 
of these Anti-Access/Area Denial issues in the current defense 
program.
    Just as a list of a few items here, there is modernization 
efforts underway to the tune of $4\1/2\ billion in the FYDP 
[Future Years Defense Program] on the F-22 to leverage radar 
and electronic protection technologies coming out of the JSF 
[Joint Strike Fighter]. We have $1.6 billion over the FYDP 
going into the F-15 radars to address electronic attack and 
warfare issues that they would have in this A2AD environment. 
There are also efforts underway with the E-18 Growler, our 
AMRAAM [Advanced Medium-Range Air-to-Air Missile] weapons 
systems, our Aegis-equipped ships, and improving antisubmarine 
capabilities that will address Anti-Access/Area Denial 
challenges.
    So I think there has been great progress made in the 
Department here. They are moving forward rapidly, and I am 
encouraged by what I have seen. Even today we talked with the 
Deputy Assistant Secretary of Defense for Force Development, 
addressing this particular issue of Anti-Access/Area Denial 
across the globe, and I think they are making good progress in 
their long-range strike family of systems that are addressing 
the issues we are going to have with Anti-Access/Area Denial 
holistically across the spectrum of military capabilities and 
capacities that we would need.
    I do think it is a concept that is going to take a number 
of years to implement. It is not something that is going to 
occur in 1 or 2 years. I think it is a long-term question that 
the Department is addressing, so clearly funding the 
initiatives that the Department puts forward to address Anti-
Access/Area Denial will be very important to us, but I think we 
have a good handle on how we are approaching this particular 
issue and the things that we are going to need to do in the 
future to ensure access for U.S. forces and to be that 
stabilizing influence that the U.S. has been in Asia really for 
over 60 years.
    Thank you.
    Mr. Forbes. Thank you, General.
    [The prepared statement of General Alles can be found in 
the Appendix on page 50.]
    Mr. Forbes. Madam Secretary.

    STATEMENT OF THE HON. JACKALYNE PFANNENSTIEL, ASSISTANT 
  SECRETARY OF THE NAVY, ENERGY, INSTALLATIONS AND ENVIRONMENT

    Secretary Pfannenstiel. Thank you, Mr. Chairman, 
Congresswoman Bordallo, distinguished members of this 
committee. I appreciate the opportunity to appear before you 
today. I will focus my comments on the realignment in Guam, 
specifically to the question of ``Are we ready?'' And that will 
begin with the recognition of the strategic importance of Guam.
    The Marine Corps relocation, along with the other Defense 
Department alignments to Guam, represents a unique opportunity 
to strategically realign the future posture in the Pacific for 
the next 50 years. We need to get this right.
    And this time last year we were still working on the 
Environmental Impact Statement for the realignment. We had some 
10,000 comments that we were working on. Since then, we have 
moved forward. We have issued the final Environmental Impact 
Statement, we have issued the Record of Decision, we have made 
decisions in certain areas for moving the facilities to Guam. 
We have deferred decision on the aircraft carrier berth and on 
the ranges, as the Congresswoman pointed out earlier.
    We have made some progress. Just this week we signed the 
Programmatic Agreement, which allows us to move forward, 
completing the Section 106 for the National Historic 
Preservation Act process. With that, we are now able to start 
letting contracts and beginning some military construction 
associated with the realignment.
    I should point out that a long-term, positive relationship 
with the people of Guam is essential to the success of the 
Marine Corps mission in the Pacific. With this in mind, we have 
laid out what we are calling the four pillars of working with 
the community in Guam. And they are that we will work towards 
OneGuam; in other words, that outside of the base and on the 
base will be of the same community, that we will pursue a green 
Guam, an environmentally preferred base, and help Guam with 
their renewable resources, and we will make sure that access to 
the cultural sites, specifically the Pagat site, would be 
protected.
    In addition, in recognizing the amount of land the 
Department of Defense already consumes on Guam, we will commit 
to making sure that we do not expand and in fact that we reduce 
the footprint on Guam.
    We believe that our commitment to these four pillars will 
allow us to work well with the Government, with the people of 
Guam. We have worked with Governor Calvo in trying to gain 
access to the land that we will need for the training, for the 
Marines' training.
    And that is a really critical element of the ``Are we 
ready?'' We need to be ready to train the Marines when they 
come to Guam. And so we are spending, we are focusing our 
attention on getting the land that we are going to need for the 
training resources.
    This is an important year for the Guam realignment. The 
start of construction is imminent, and additional contracts 
will be awarded in the next weeks and months.
    Building on the projects from the fiscal year 2010 and 
fiscal year 2011, we are seeking additional funding for fiscal 
year 2012 to begin vertical construction and to allow off-
island workers.
    Also this year, we will continue the discussions with the 
Government and the legislature and the private landowners to 
begin an agreement in principle for the land that we need for 
the ranges.
    The Guam realignment is a multi-faceted, dynamic endeavor 
with many component parts. Successful execution will be the key 
to the Department's success in the Pacific. We will continue to 
work with our partners in Guam and Japan and the Commonwealth 
of the Northern Marianas to develop solutions to the challenges 
we are facing.
    Thank you for the opportunity to address you today. I look 
forward to continue to work with you, and I am available for 
your questions.
    [The prepared statement of Secretary Pfannenstiel can be 
found in the Appendix on page 58.]
    Mr. Forbes. Thank you, Madam Secretary. I thank all of our 
witnesses for their comments. Normally I defer my questions to 
the end, but I am going to start because I am going to come 
back with the three questions that I asked at the beginning to 
see if anyone is willing to address them. And let me fill in 
the context for you.
    There was a sunny summer day that took place when, before I 
was born, when Oahu was just beginning to wake up in the 
morning, most of the people who had been out doing what they 
would do on a Saturday night were still sleeping in, there were 
a handful of people that were policing the area. A fleet was 
making its way up to the northern portion of Oahu. It was 
sailing inside some rain squalls that were taking place, 
staying out of the commercial lanes so that shipping couldn't 
pick them up, the planes couldn't pick them up. As it got to 
the northern portion of Oahu, they launched three types of 
planes--fighters, bombers and torpedo planes. Just as they came 
into Oahu, the sun came up, they were able to see their 
targets, our battleships were all lined up in Battleship Alley. 
They did all the things they were supposed to do. By the time 
our fighters could scramble and get up, they had already gone. 
They landed back on the airfield. The next thing that happened 
as soon as they landed another wave came in, and that was 
successful.
    As you would hear that, you would think that would be Pearl 
Harbor. As many of you know, that was not Pearl Harbor. That 
was a war game we did in 1932, 10 years before with Admiral 
Yarnell, and the Department of Defense threw it out because 
they basically said it was unfair to attack on Sunday, and 
nobody would attack on Sunday. If we had seen that 10 years ago 
before, we would have been better prepared 10 years later.
    Now I say that because I come back to looking at the 
scenarios when we are asking if we are ready we are not just 
asking what our goals are or what our philosophies are. We are 
trying to ask, ``Are we ready when those conflicts come?'' We 
know that there is a strategy by the Chinese, we hope that that 
doesn't happen, all of us want to have the dialogue, but it is 
the Anti-Access/Area Denial problem. They have told me that, 
they have told many of the members here, they write about it 
all the time. If we deny the strategy, let us know, but if 
there is a strategy there, we had the Secretary saying a year 
ago we were going to create this concept.
    My question for any of you today is do we have the concept? 
Not are we making good progress, but do we have that concept 
today and if we don't have the concept today, when can we 
expect to have that? Anybody want to tackle the question?
    Mr. Schiffer. I will try to take a first cut at that 
question, Mr. Chairman.
    I think it is fair to say that as we talk about Air-Sea 
that it is an evolving operational concept. But the important 
point, and I think this is something that General Alles got at, 
is that the Air-Sea concept needs to be put inside the larger 
framework of the activities that we are undertaking to counter 
Anti-Access/Area Denial challenges, not just as it might relate 
to China, but as the General said, globally, wherever those 
challenges may occur.
    We take as a predicate the necessity for the United States 
to maintain its ability to project power across the globe and 
to maintain the integrity of U.S. alliances and partnerships 
and to achieve that objective and to make sure that Anti-
Access/Area Denial threats and capabilities will not in fact 
slow the deployment of forces into a theater or prevent U.S. 
forces from operating in a particular theater.
    Mr. Forbes. Mr. Schiffer, I don't want to cut you off but 
other people----
    Mr. Schiffer. I am going to be getting to the enumeration. 
There are a number of things that we are currently engaged in. 
There are procurement activities that include the new 
penetrating bomber and pressing forward with the mass 
production of the F-35, that we are expanding procurement of 
proven cruise missile systems. We are looking to procure robust 
an air defense network that will prevail against ballistic and 
cruise missile attacks. We are upgrading the B-2 bomber. We are 
modernizing our fourth-generation fighters with new sensors, 
electronic protection and modernized missiles. We are ensuring 
resiliency by hardening key logistics infrastructures, building 
dispersed operating locations, and creating redundant and 
resilient command and control networks with increased 
bandwidth.
    We are also pursuing in addition to these investments new 
concepts of operations, including new horizons and power 
projection by integrating the presence of the Navy with the 
global reach of the Air Force, which is the essence of what the 
Air-Sea Battle concept of operations is all about.
    And we are pursuing new technologies and new technologies 
that will allow us to counter competitors' Anti-Access/Area 
Denial investments, specifically their investments in ballistic 
missiles, counter-space, and cyber capabilities, and we are 
examining such technologies as prompt global strike 
capabilities to be able to precisely strike time-sensitive, 
high-value targets.
    So when you put that together as a package I think it 
provides a fairly robust response to the threats and challenges 
that you outline.
    Mr. Forbes. Thank you. General, do we have the concept?
    General Alles. The concept is in development, which is what 
we are currently doing and what the Navy and the Air Force are 
currently in the process of doing. And they have started that 
work over the past year or so, I think extending beyond a year, 
it is still something that is in development and there are many 
enabling pieces of that once we have that finally developed. So 
I think as Mr. Schiffer is saying, it is evolving in its 
development, it is at the point, it is not at the point where 
obviously I am going to deliver you a pamphlet on the Air-Sea 
Battle concept. It is something that we are still developing.
    Mr. Forbes. Do you have any idea when we might expect it, 
General?
    General Alles. Candidly, I would have to ask the services 
and come back to you on that. I think I would be speaking out 
of turn to say we have an actual timeline for that.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Forbes. Madam Secretary, question on Guam, if we lost 
that fuel capacity, how long would it take us to replace it and 
where would we have to get that energy from?
    Secretary Pfannenstiel. Mr. Chairman, I will have to get 
back to you on the date. I do know that there are other fuel 
sources in the Pacific and that we would be perhaps--in fact 
perhaps the General can be more specific on where that would 
come from.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Forbes. General, maybe you can.
    General Alles. I would say that I can address the 
specifics. The specifics are classified in nature.
    Mr. Forbes. That is okay. Don't tell us anything 
classified.
    General Alles. There are alternative fuel sources in the 
Pacific that we would leverage. There is a concern about the 
vulnerability of above-ground facilities there. There is a 
resiliency effort going on by the Air Force. Currently they 
have $300 million put against that, I am not sure over the 
exact time period, but to address some of the vulnerability 
issues that we are going to have in this Anti-Access/Area 
Denial environment.
    So I think we are looking at that and looking at the 
actions we need to take to make those facilities better 
protected.
    But I think also, as described earlier, we talked about 
this briefly in your office this morning, is it is more than 
just a single piece, a single system. It is more than 
hardening. It is really as Air-Sea Battle is attempting to 
address it needs to address the end-to-end chain of operations. 
So it is complex and it is broad in nature.
    Mr. Forbes. Before we go to Ms. Bordallo, Mr. Kissell has a 
quick follow-up question.
    Mr. Kissell. Just a quick question here. We talk about the 
fuel capacities on Guam and other set places, a specific 
location. But one of our colleagues in the last Congress said 
what about getting the fuel to the ships themselves because you 
wouldn't want the ships to have to come back to a set location, 
what about the refueling capacity at sea in the midst of 
battle? Do we have the ships that can do that?
    General Alles. Candidly, I am not aware of any shortages 
that we have in refueling the fleet. That one is the best I can 
address. So we would need to address it with the Navy.
    Mr. Forbes. My last question, very quickly, if we had a 
protracted battle with high-intensity operations do we have the 
industrial base here to sustain that, and if so, for what 
period of time do you think?
    General Alles. Candidly, I am not qualified to answer that.
    Mr. Forbes. Mr. Schiffer, any idea?
    Mr. Schiffer. I would have to also plead that when it comes 
to speaking to the industrial base in the United States I am 
not qualified to answer that but will be happy to make sure 
that----
    Mr. Forbes. If you can give us that information. And now my 
colleague and friend from Guam, Ms. Bordallo.
    [The information referred to can be found in the Appendix 
on page 77.]
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I would like to ask my first question to Secretary 
Schiffer, and that is regarding the concept of tangible 
progress with regards to the construction of the new Futenma 
facility and what that means for the realignment on Guam. What 
exactly is tangible progress and when tangible progress occurs 
what will that allow the United States to accomplish?
    And further, what must the United States be doing 
concurrently as the Government of Guam--the Government of Japan 
works through its processes to reach tangible progress in 
Okinawa?
    Mr. Schiffer. Thank you. As we look at tangible progress on 
the Futenma Replacement Facility, we see it as not a single 
specific event but rather a series of steps roughly in parallel 
between Japan and the United States as spelled out in the 
Realignment Roadmap, the Guam International Agreement, and 
other bilateral agreements.
    It will allow us to move forward with the Government of 
Japan as progress is made on the FRF to in turn take associated 
steps that we have to take on Guam. There are a number of 
different indicators that we are looking at, starting with the 
decision on the runway configuration for FRF that we expect at 
the upcoming ``Two-plus-Two'' meeting with Japan and then other 
issues that we expect to come down, down the line, including 
issuance of the landfill permit, construction of the seawall, 
and progress on the landfill itself.
    The other critical point for the committee, which I know 
that you understand, is that preparation on Guam needs to begin 
well in advance of actual construction on the ground for the 
replacement facility at Camp Schwab and that relocation of the 
Marines from Okinawa will be phased with completion of suitable 
infrastructure on Guam sequenced in such a way as to maintain 
unit cohesion and operational readiness. And that is why this 
entire process has to move in lockstep and why we need to look 
at all of the different indicators as we go along, including 
for one other item to offer, Japanese financing for 
infrastructure improvements on Guam as part of this continuum 
that comprises tangible progress and that will enable us to 
relocate from Futenma Air Station to the Futenma Replacement 
Facility and to relocate the Marines from Okinawa to Guam.
    Ms. Bordallo. Thank you, Mr. Secretary.
    I have one quick question, Mr. Chairman. This is for 
Secretary Pfannenstiel. As you know, last year's defense 
authorization bill contained a provision that gave the 
Department of Defense the permissive authority to integrate the 
water and the wastewater lines on Guam. I have long believed 
that the Navy, indeed all services, should be out of the 
business of being a utility provider. And that said, I continue 
to believe that the integration of power in Guam provides us 
the right model for utility integration.
    In that case, Madam Secretary, Guam took over control of 
the Navy's power system but did so after agreeing to reach 
certain performance milestones.
    Additionally, there was a third-party expert that helped to 
oversee the integration process and ensure that the agreed-upon 
milestones were met. However, this was all done at no cost to 
the ratepayers on Guam.
    Would you agree that this is a model that should be used 
for the consolidation of the water and wastewater system on 
Guam? And would you also agree that consolidation of the 
utilities should occur without burdening the ratepayers on 
Guam?
    Secretary Pfannenstiel. Thank you, Congresswoman Bordallo. 
We are, in fact, working with the Guam Water Authority to 
interconnect with their lines, and some of the money that will 
come from the Japanese financing for infrastructure will be 
used to improve the infrastructure for the water facilities, 
the water on base, and those will be interconnected.
    Now, as I understand, the agreement in the NDAA [National 
Defense Authorization Act] about the integration set some 
conditions for meeting performance standards before there could 
be such thing as an integration, and that is what happened with 
power. And so my suggestion with water is that we continue to 
work towards meeting the standards that will work for the needs 
of the Department of Defense as well as the Guam water agency.
    Ms. Bordallo. Madam Secretary, I noticed in the agreement 
there that they are saying that the Navy should have a voting 
member on our utility board.
    Can you indicate where else in the United States that the 
Navy is a voting member on a utility board or any other local 
governing body? Isn't this a cumbersome requirement for the 
Navy or any service and intrusive to the Federal, State, and 
local relationship?
    Secretary Pfannenstiel. I don't know of any place where it 
would be, but I believe that the requirement there was based on 
this need to make sure that certain operational standards were 
met, and I believe that was one way that that could be done.
    Ms. Bordallo. So your answer is then nowhere else in the 
United States?
    Secretary Pfannenstiel. None that I know of, Congresswoman.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    Mr. Forbes. Now the chair recognizes Mr. Runyan from New 
Jersey for 5 minutes.
    Mr. Runyan. Thank you, Mr. Chairman, and I thank all three 
of you witnesses for coming out.
    General Alles, talking about readiness in a current light, 
how is Pacific Command engaging with our international partners 
over there to really address terrorism? I mean, you have 
elements of the Philippines, Indonesia, Southeast Asia that are 
obvious threats. How are our partners coming together and do we 
need more resources and/or funding to accomplish this and be 
ready for that?
    General Alles. Thank you, sir. That is being addressed at 
multiple levels. Let me talk about kind of current events. As 
you are probably aware, we have a Joint Special Operations Task 
Force operating in the southern Philippines of around 600 U.S. 
personnel. That has been there for a number of years and 
continues to be effective in addressing terrorist issues that 
were occurring in that part of the Philippines, I think very 
effectively. So that is one specific instance.
    So we are also concerned, as we look at the South Asia 
region, with the LET, or the Lashkar-e-Taiba terrorist group, 
which emanates out of Pakistan but has a presence in India and 
Nepal and Bangladesh, and we are concerned how that--let me 
backtrack for a second. As you are aware, the LET was 
responsible for the Mumbai attacks, where so many people lost 
their lives. So we are very concerned about that interaction 
that LET is having on India and the effect, that compression 
effect that you had between two nuclear powers when there is an 
attack into India from LET.
    So we are concerned about that very much in the South Asia 
area. We are attempting to address that by focusing not only in 
India but also in Bangladesh and Nepal to ensure that we work 
on facilitation networks, and, more importantly, how we address 
building the capacity of our partners to, in fact, address 
those internal issues so that they can secure their borders, so 
that they have developed networks for intelligence, they can 
develop intelligence on things that might be occurring inside 
of their country, and then also how they might--you know, law 
enforcement and actual counterterrorism operations.
    So that is another line of our operation there, and we 
facilitate that mainly through your Theater Security 
Cooperation Plan, which addresses each of the countries in the 
Pacific AOR [Area of Responsibility] and the ones that are 
specific concerns for terrorist activities, clearly a big part 
of that, TCP [Theater Security Cooperation Plan] is addressing 
that building partner capacity to address either endemic or 
military issues that are causing those situations to occur.
    Mr. Runyan. A kind of problem in the same realm to kind of 
defuse the tensions also with the South China Sea, the Taiwan 
Strait, is that kind of the same angle you are taking with that 
or is that a totally different game?
    General Alles. The real, the building partner capacity part 
of this I think is in a different sense, you know. Of course 
when we interact with the Chinese, it is a different 
interaction than we have with our allies and our partners, if 
that is what you are asking, sir.
    Mr. Runyan. I was just curious about, we know there is a 
lot of tension there, specifically in the Strait and that type 
of thing and how we are dealing with that moving forward.
    General Alles. I think, again, and Mr. Schiffer may want to 
comment also, I think the importance of the interaction 
military-to-military between ourselves and the Chinese is of 
prime importance, and we do remain concerned that the nature of 
that interaction tends to be episodic at best.
    Mr. Runyan. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Forbes. Thank you, Mr. Runyan.
    And now our submarine expert from Connecticut, Mr. 
Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Actually to follow 
up on Mr. Runyan's question, a test of that military-to-
military relationship was the sinking of the Cheonan, which 
again there was exhaustive forensic investigation that it was 
inescapable that it was a completely unprovoked attack by a 
North Korean mini sub, and yet we were unable to get China's 
acknowledgment of, again, something that was just totally black 
and white that North Korea was responsible for this.
    And in terms of just the prospects of a productive 
military-to-military relationship, even government-to-
government relationship, to not be able to even succeed in 
terms of getting a basic baseline of what actually happened 
there and in terms of just what impact that is going to have in 
terms of transit of traffic, both commercial and military, in 
that part of the world, I guess I would ask you to comment on 
that Mr. Schiffer, in terms of it seems like using that as a 
test, the relationship really is not doing that well and maybe 
it is just episodic, is the right way to describe it.
    The second question in terms of readiness is the press 
reports show that there was clearly a gap there in terms of 
sonar technology, in terms of being able to detect that mini 
sub and when you gave your list of investments and help that we 
are giving to our allies in that region, that was one of the 
items that, I didn't hear it, and I am just wondering if maybe 
you could address that because clearly 46 sailors lost their 
lives because they didn't see that submarine coming or that 
attack.
    Mr. Schiffer. Let me address part of the question, and then 
turn the floor over to General Alles.
    I guess I would note first that when the Cheonan incident 
occurred, our military-to-military relationship with the 
People's Republic of China was in one of its periodic and, from 
our perspective, very unfortunate periods of suspension because 
the Chinese had suspended the relationship in January of last 
year following our announcement of an arms sale package to 
Taiwan. So we were actually unable at that point in time to 
have any discussions with the Chinese in the military channels 
about the Cheonan.
    I am not sure that would have made much of a difference, 
frankly. And much like you, we continue to be somewhat 
mystified by how the Chinese have approached what seems to us 
to be very, very clear evidence about culpability in the 
Cheonan incident.
    We hope now that we have resumed the military-to-military 
relationship with China, that we are going to be able to put it 
on stable and reliable footing and that in so doing, we will be 
able to reduce misunderstanding, miscommunication, and 
misapprehension, and perhaps have some real discussions with 
them about some of the larger strategic issues in the region, 
including how we each view and approach North Korea. That is 
certainly something that when Secretary Gates was in China this 
past January he engaged on.
    Insofar as the readiness issue that you identified before, 
turning things over to General Alles, I will just note that the 
list that I offered was, by necessity, given the open nature of 
this hearing, not complete, and obviously we will be happy to 
brief any member of the committee that is interested in a 
closed session more fully on the fuller list of the 
capabilities that we are seeking to develop.
    But I certainly can say in this open setting that, as you 
are no doubt aware, we have undertaken a series of very robust 
exercises with our ROK ally since the sinking of the Cheonan, 
including a number of exercises at sea off both coasts of 
Korea. And those exercises have been intended in no small part 
to increase ROK capabilities and increase alliance capabilities 
precisely so we are bettered postured to be able to respond to 
these sorts of provocations in the future.
    General Alles. Thank you, sir. Thank you, Mr. Schiffer.
    I would make a couple of comments about Cheonan. One is the 
nature of the attack was unexpected. It was unprovoked and 
unexpected, so from that standpoint it was a surprise attack 
and a surprise to the Koreans.
    As indicated, a lot of our focus here in the near term has 
been on increasing the capacity of the South Koreans in terms 
of ASW [Anti-Submarine Warfare]. We have conducted a number of 
ASW exercises with them to increase their capabilities in those 
areas.
    I think the Chinese remain concerned about the stability of 
North Korea in general, and I think that is a large part, that 
is a large calculus in how they respond to these situations 
here. We, as all would expect, are mystified, given the 
evidence we saw for Cheonan, that that was not attributed to 
the North Koreans.
    Thank you.
    Mr. Forbes. Thank you. Just to let everybody know, we have 
three votes that have just been called. Our witnesses have 
graciously agreed to wait as we run over and do those and come 
back. I want to try to get in one more set of questions. So I 
would like to turn now to the gentleman from Alabama, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Alles, I understand that the Department is 
reevaluating its prepositioned stocks as a part of Secretary 
Gates' efficiency drills, and we are already beginning to see 
reductions in funding for prepo in the 2012 budget that the 
Secretary just submitted to us. Was PACOM [U.S. Pacific 
Command] a part of this evaluation of the prepo strategy?
    General Alles. Yes, sir, we were a part of that evaluation. 
I would note that we have calculated the effects of that as it 
is booked against our operations plans to ensure those plans 
remain viable in execution, and they are from our standpoint.
    So I can't address the whole worldwide posture of that. 
That is beyond my scope at PACOM. But from our standpoint of 
sourcing our plans and addressing the very difficult time-
distance equation we have in the Pacific theater, we are 
currently satisfied.
    Mr. Rogers. And you feel like that is going to be adequate 
in the near future?
    See, given what is happening with the recent national 
disaster in Japan and what is going to be required of resources 
and the volatility in North Korea, it seems to me that bringing 
those prepositioned stocks down is risky, and you are saying 
you don't think that is true?
    General Alles. That was one of the concerns we addressed to 
the Department, was to ensure that we were looking beyond just 
the near term, really at the 5-year and beyond horizon, because 
of course, the dynamic, the security posture in Asia is 
changing as we consider the rise in powers in Asia itself. So 
that was part of our calculation there and part of our response 
back to the Department to ensure that we had adequate stocks 
for our operations plans.
    Mr. Rogers. I understand that we need to get use out of 
every dollar, but I also want to make sure we are ready, and I 
have very real concerns about these reductions.
    We know that the readiness posture of PACOM is negatively 
affected by the ongoing military operations in Iraq and 
Afghanistan, and now by humanitarian assistance in Japan.
    How significant is the shortage of forces and equipment 
required to effectively deal with the broad range of security 
concerns in PACOM's Area of Operation?
    General Alles. I would comment there, sir, that for our 
day-to-day theater security operations, I think we are adequate 
resourced, and I have had this conversation with Admiral 
Willard, my boss. There is a significant presence of U.S. 
forces from PACOM in Afghanistan and Iraq. Obviously, there is 
an effect of those forces. There is a long-term effect, I 
believe, about the strategic expression we are making by having 
those forces out of theater year after year after year, that we 
do have to address our operations. And I think as a long-term 
equation, we need to continue to look at that.
    It is having, though, probably a different effect you may 
not be aware of. As the ground forces are gone obviously to 
Afghanistan and Iraq, we are relying more on our air and our 
Navy forces, so that requires more basic steaming days or air 
operations days out of those forces, which is more wear and 
tear on those aircrafts and those ships. It affects maintenance 
schedules and also the long-term viability of those. In other 
words, we are using those assets up because we are relying on 
them more with our deployment of ground forces out of theater.
    Mr. Rogers. What would you like to see this committee or 
this Congress do to help you with that wear and tear and that 
problem that you just described?
    General Alles. Well, I think in one sense, as we continue 
on the continuing resolution, that is going to affect 
maintenance schedules for our ships and our aircraft because of 
funding levels that they don't have. That is one aspect of it. 
I think, also, we have to look at the long-term equation of 
what our shipbuilding program looks like.
    Mr. Rogers. Just as a last point, I want to go back to this 
prepositioned stocks. When I asked you if PACOM had been 
involved in the evaluation, did you feel any pressure from the 
Secretary's Office or the Administration to tell them what they 
wanted to hear on that issue?
    General Alles. No, sir. I think we had a robust dialogue 
with them and clearly expressed what our positions were.
    Mr. Rogers. Excellent. Thank you, General.
    That is all that I have, Mr. Chairman.
    Mr. Forbes. We will stand in recess until we return from 
the votes. Thank you for your patience. It will probably be 
about 30 minutes.
    [Recess.]
    Mr. Forbes. I will call the hearing back to order.
    I thank our witnesses for their patience and apologize for 
us having to leave during the votes.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Kissell, for 5 minutes.
    Mr. Kissell. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here.
    Mr. Chairman, being a past world history teacher, I 
couldn't help but to enjoy your story this morning about Pearl 
Harbor. When I was teaching, I would start out every semester 
by reading a preamble to a book, and I believe it was 
``Flyboys,'' but don't quote me on that. And it talked about 
the Japanese surprised the fleet, caught them in the harbor in 
December, and the end result of the battle was they sunk all of 
the fleet. I would tell my students, if you can tell me where 
that happened, I will give you an A for the semester and you 
don't have to come to class; you can do whatever you want. All 
of them would raise their hands, and of course they thought it 
was Pearl Harbor. I would say: Well, the next line in the book 
says that President Roosevelt wrote a letter to the Japanese 
and congratulated them to their great victory. That stumped 
them a bit. It was 1905, it was the Russians.
    We have great capacity to think we have all of the answers, 
and we have to keep looking for the things that may surprise 
us.
    The reason I asked the question, General, earlier about the 
supply ships, Gene Taylor was one of our former colleagues who 
was very knowledgeable of these things. I remember one session 
he was very concerned about how do we resupply the oil when we 
are on the seas, in the battle, do we have enough oilers. He 
had concerns whether we did or not. I will follow up with this 
with a question, and you can take it off the record.
    My question being this: If we are in a prolonged engagement 
in the Western Pacific, do we have the resources, and the 
chairman asked do we have the industrial resources, well, not 
answering that, but do we have the resources, the capacity, 
whether it be ships, airplanes, whatever, to get what we need 
on a continuing basis to where the engagement may be.
    I encourage you to be brief because I have a couple of 
other questions.
    General Alles. We can't get obviously into classified 
discussions, obviously. I would need to answer specifics off 
the record.
    But generally, I would say yes, we do have the capacities 
we need in terms of resupply for the plans that I have booked 
right now, sir.
    Mr. Kissell. Good. One country we haven't specifically 
mentioned, even though we have said in the general area, is 
Vietnam. Where do we see Vietnam emerging? Or do we see them 
emerging in terms of the military, but where do we see them 
emerging politically, especially as it relates to our 
relationship with China?
    Once again, whoever wants to jump at this one.
    Mr. Schiffer. I think as a general statement we have been 
extraordinarily pleased by the progress that we have made in 
our relationship with Vietnam over the past number of years 
since normalization. And we certainly look to deepen and 
strengthen the relationship that we have between the United 
States and Vietnam in the years ahead.
    Mr. Kissell. Does China view that as a threat, because 
historically those two countries have been at odds?
    Mr. Schiffer. I wouldn't speak and couldn't speak about 
Beijing's threat perception; but certainly, as you know, China 
and Vietnam have had a rocky history of their own. I am certain 
there are those in Beijing that probably do view our burgeoning 
relationship with Vietnam in a less-than-favorable light.
    From our perspective, our deepening and strengthening 
relationship with Vietnam, and our desire to enter into a 
genuine partnership with Vietnam, is a relationship that we 
pursue in and of itself. It is not about China; it is about the 
United States and Vietnam.
    But I should also note that we don't have any illusions, 
given our own history with Vietnam, about the future of that 
relationship either. There are issues that we have to continue 
to work out. There are human rights questions that we still 
have in terms of how Vietnam treats some of its own religious 
minorities that we still need to be able to cycle through as 
well.
    Mr. Kissell. Thank you, and thank you once again for your 
patience. Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Kissell.
    Now, someone who the Pacific is near and dear to her heart, 
the gentlelady from Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    I don't believe we can discuss readiness out of the context 
of what has happened and what the implications are of what 
happened, the devastation and the catastrophe in Japan. Having 
said that, I would like to know, Japan is considered like our 
anchor partner in terms of our security defenses in the 
Pacific. What impact is the tsunami and the earthquake having 
on whatever strategic locations we have in Japan? Mr. 
Secretary, if you can answer that.
    Mr. Schiffer. Certainly. To begin with, I would say it 
would be speculative at best at this point to comment on any of 
the longer-term implications of the earthquake and the tsunami. 
But I would note that certainly I think the assistance that we 
have been able to offer, the engagement of the U.S. military 
and the U.S. Government across the board in response to this 
crisis has helped to strengthen the bonds that we have between 
our two countries and helped make a case, I think, for the 
logic of why we have a forward-deployed presence in the Asian-
Pacific region, including the base and footprint that we have 
in Japan.
    Ms. Hanabusa. I understand that part, Mr. Secretary. I 
guess my question is more in line of what role does Japan play, 
if any, in our readiness posture in the Pacific, and how is it 
now going to be affected by what has happened?
    Mr. Schiffer. Japan is the cornerstone of our approach to 
security issues in the Asian-Pacific region, and there is a 
reason why we term it that way and it is not just rhetoric. 
Japan is an incredibly important ally. The contributions that 
they bring to the alliance, including our base and footprint in 
Japan is absolutely critical to our enduring presence in the 
Asian-Pacific region.
    I have absolutely no reason to believe that anything that 
has transpired in the past few days following the earthquake 
and the tsunami will undermine the commitment, the depth, the 
strength of the U.S.-Japan alliance. As I noted I think just to 
the contrary, that we will emerge from this and Japan will 
emerge from this with a closer, better, and deeper 
relationship.
    Ms. Hanabusa. One of the issues that we are aware of is the 
fact that the Japanese Government structure has changed. We 
have gone from, since I think 1955 when the Liberal Democratic 
Party actually had control of their Parliament, and now we have 
the Democratic Party of Japan; and I don't believe necessarily 
the Democratic Party of Japan felt as strong about our military 
presence as the Liberal Democratic Party. Do you feel that 
somehow that structure is now going to be affected as well?
    Mr. Schiffer. I would offer that we have been 
extraordinarily happy to be working with the DPJ [Democratic 
Party of Japan] Government over the past years. As I noted in 
my opening statement, the Prime Minister, the Defense Minister, 
the Foreign Minister, Chief Cabinet Secretary, all of the 
senior members of the DPJ Government have made very, very 
strong and forward-leaning statements about the value of the 
alliance, the value of the U.S. military presence in Japan, and 
about their commitment to move forward with the Realignment 
Roadmap and FRF. So we view them as a good and strong partner.
    Ms. Hanabusa. I understand what you are saying, but isn't 
it true that the reality of it is as to the Futenma transfer 
that Japan has yet to come up with approximately their $6 
billion of the $10 billion price tag for Futenma. Given the 
disaster, given the catastrophe, what are the probabilities 
that they are going to pay for the move of part of the Marines 
from Futenma to Guam?
    Mr. Schiffer. Again, I think that would be highly 
speculative. I guess I would note that Japan has offered $415.5 
million in funding for Guam infrastructure improvements in the 
Japan fiscal year 2011 budget. That has already been approved 
by their lower house. We expect it to be fully approved, and 
that we are not aware of any effort, have not heard any voices 
in the past few days that would suggest that that funding is 
not going to go forward.
    Ms. Hanabusa. Have you heard an affirmation that even if 
they have got this critical situation where they are going to 
be rebuilding a huge part of their nation that they are still 
going to continue with their commitments to the United States?
    Mr. Schiffer. The discussions that we have been having with 
the Government of Japan in the past few days have been how to 
respond to the immediate humanitarian crisis and the situation 
at the Fukushima Daiichi nuclear power plant. Once we have 
managed to deal with the management of the immediate 
consequences, the thousands of people that have died, the 
hundreds of thousands that are internally displaced, and the 
ongoing situation with the nuclear power plant, I am sure we 
will have those discussions. And I am fully confident that the 
Government of Japan will continue to be positively engaged.
    Ms. Hanabusa. Thank you.
    Thank you, Mr. Chair.
    Mr. Forbes. Thank you for your questions.
    To follow up on what the gentlelady from Hawaii was asking, 
Mr. Schiffer, you and General Alles have both talked about the 
importance of our allies working in a partnership fashion for 
us to be able to do the type of defense that we need in the 
Pacific. Have there been any thoughts about perhaps selling 
some export version of the F-22 to Japan or any of our other 
allies given the fact that we are concerned perhaps that the 
Russians may be selling their PAK FA [fifth-generation jet 
fighter] to other players across the world? And if we did that, 
and I am not suggesting we do, I am just asking for your 
thoughts, but there is arguments that it would help bring the 
cost of the F-22 down in doing that. Have there ever been any 
discussions about doing that?
    Mr. Schiffer. I think Secretary Gates is very, very clear 
on where he is on the F-22 program. As I did not bring along a 
copy of my letter of resignation in my backpack, that will be 
the entirety of my remarks on the issue.
    Mr. Forbes. Well placed.
    General Alles. I will leave the F-22 to Mr. Schiffer.
    But I would just comment, we have had discussions with the 
Japanese about what their needs are in terms of aviation 
requirements. We think the F-35 makes a very logical fit for 
them. I think it is what they are exploring currently. So that 
makes eminent sense to us in many ways. I think it more 
adequately addresses the defense of Japan needs.
    I think another aspect of this, back to our allies and 
partners in the region, in the Northeast Asia region we are 
seeing increased levels of cooperation between the Government 
of South Korea and Japan. Even this recent tragedy shows a 
degree of cooperation between them in terms of assistance. So 
we are encouraged by that and by the trilateral cooperation 
that we are having between the three sides.
    Mr. Forbes. Madam Secretary, I am going to let you slide on 
that question, and we are going to go to Ms. Bordallo.
    Ms. Bordallo. Mr. Chairman, if you would bear with me. I 
have a number of questions to ask. I really just want to get 
answers for the record, so if the witnesses could make it very 
brief.
    First, Secretary Pfannenstiel, now that the Programmatic 
Agreement has been signed, when can you expect task orders to 
be issued to contract awardees? And when will some initial 
construction efforts get underway on Guam?
    Secretary Pfannenstiel. Congresswoman Bordallo, we will be 
issuing contracts and notices to proceed on several of these 
contracts very soon. We have some contracts have already been 
awarded, and we will be able to issue notices to proceed on 
those. On a number of others we have specific dates that we are 
ready to go on them.
    Ms. Bordallo. Very good.
    Regarding the training ranges, I hope that General Alles 
can help to answer this. The QDR addresses training in the 
Pacific. General, can you describe the current challenges to 
training in this region? And also, are there any efforts by 
PACOM to lead a comprehensive approach to develop a truly 
effective solution to training issues in the future?
    General Alles. Thank you, ma'am. There is an effort on the 
part of PACOM to start an EIS [environmental impact statement], 
which actually I think the funding is in the current year's 
budget, that would address holistically the issues for PACOM as 
far as joint training is concerned across the Pacific region. 
So I think that addresses partially the issues on Guam.
    We have discussed earlier the sighting of ranges on Guam 
itself and the need for individual training of the Marines in 
terms of small arms and those issues and where the broader 
degrees of training can be conducted throughout the theater.
    One of our prime considerations, though, as we have 
discussed, is that we maintain ready forces throughout our 
region. We think that is critical as a deterrence aspect. It is 
so very important to us at the combatant commander's levels 
that we are able to train our marines, soldiers, sailors, and 
airmen across their range of required skills.
    Ms. Bordallo. Thank you.
    Secretary Pfannenstiel, I hope that you can help me better 
understand the rationale for a firing range on Guam. I have 
long expressed my concern about the preferred alternative 
location for the firing range on Guam. The Marine requirements 
seem to have shifted since the beginning of the EIS process in 
2006; and as such, why are these individual qualifications 
needed to be met on Guam? Has a cost-benefit analysis, and I 
think we talked about this earlier, been conducted to determine 
why the Island of Tinian may or may not be feasible?
    Secretary Pfannenstiel. We have looked at the Island of 
Tinian, and in fact we will be doing some group training there. 
But the individual qualifying training needs to be on site 
close to where the Marines will be. We have looked at the 
ability to move the Marines as would be required, to move them 
to Tinian often, to support them there, to move them back. You 
end up not with just a lot of additional expense, you reduce 
the time they have to train. You reduce the throughput of 
training for them.
    Given all of that, we have concluded that the training 
needs to be on the Island of Guam. And we have sought for, 
since we have been doing the process, to find a place on the 
island of Guam that meets the needs; that is, sufficient size, 
that has the least impact on the community, that does not 
interfere with business or recreation, that is operationally 
safe, which is why we ended up with a preferred alternative 
that we are now looking at.
    Ms. Bordallo. Another question for you, Secretary. Many 
institutions of higher learning have cooperative agreements 
with DOD to support the mission and provide technical studies 
and analysis. Are you open to developing a cooperative 
agreement with the University of Guam, and what steps are you 
taking to get an agreement on a cooperative agreement?
    Secretary Pfannenstiel. We have the highest respect--I 
personally have the highest respect for the University of Guam 
and Dr. Underwood. I have met with him every time I have gone 
to Guam. I believe that the university is a true asset for the 
island. I am not sure what the cooperative agreement is that 
you would be proposing, but I am certainly open to talking 
about it.
    Ms. Bordallo. Thank you.
    And another one for you, Secretary. As you know, included 
in the Record of Decision was a commitment to Adaptive Program 
Management throughout the duration of the military buildup. 
However, there is still a lack of common understanding of APM's 
[the Adaptive Program Management's] specific meaning for the 
buildup. What role do you see APM and CMCC [Civilian Military 
Coordinating Council] playing as the relocation moves forward?
    Secretary Pfannenstiel. The Adaptive Program Management was 
developed as a way of slowing, if necessary, the activity of 
the buildup to keep from overwhelming the infrastructure of the 
island, whether it is water or wastewater or power or roads or 
any other aspect of the infrastructure. So the idea is that as 
the buildup happens, as construction happens, we will look 
continually at the logistics that are needed and slow down or 
change the schedule. And the CMCC, the Civilian Military 
Coordinating Council, would be the oversight body that would 
meet and decide whether the buildup was in fact moving too 
fast, whether it needed to be slowed down in some aspects.
    Right now we are in the process of working with the other 
parties who would be involved in this to develop the operating 
charter for the CMCC.
    Ms. Bordallo. A follow-up on this, if a project related to 
the buildup is causing significant environmental impacts, how 
will DOD adequately adapt given the short timeframe for the 
buildup?
    Secretary Pfannenstiel. I believe that depends on what the 
impacts of the project would be. We are working with the 
Environmental Protection Agency and many other resources 
agencies to mitigate where we can, to slow down if that is what 
would be required.
    Ms. Bordallo. All right, and I have a further question for 
you, Secretary. Throughout the course of this series of 
hearings on ``Are we ready?'', we have discussed the element of 
risk in the operations and maintenance. Now, I would like to 
bring an element of serious risk in the acquisition strategy 
for the military buildup on Guam.
    The current acquisition strategy requires that each 
contractor provides a certain level of medical care at each 
work site as well as health insurance coverage. The plan also 
calls for the prescreening of any guest workers at their 
origin. The fragmented strategy could result in seven different 
plans for how to care for workers. Given the state of the 
health care system on Guam, I think this part of the plan 
assumes way too much risk for our overall health 
infrastructure.
    So can you detail for the committee why this strategy was 
settled on and what steps are being taken to ensure that the 
predeployment screening of guest workers is done to a certain 
standard?
    Secretary Pfannenstiel. Congresswoman, the concern here was 
to specifically avoid overwhelming the medical facilities 
available on Guam. So it became part of the contract award 
process that the contractors would have to provide medical care 
for their workers. That is an important part of what determined 
whether they would be selected.
    Our expectation is that these workers will be able to be 
treated by their employers. If they need to go to the hospital 
for stabilization, they would do that, then they would be 
airlifted off. They would be able to put the least possible 
impact on the island's existing medical facilities.
    In terms of screening before they came, we would have to 
ensure that that would happen and that it would be effective.
    Ms. Bordallo. Can I get your word on working with my office 
further on this detail?
    Secretary Pfannenstiel. Oh, absolutely. I would be glad to 
do that.
    Ms. Bordallo. Very good.
    [The information referred to can be found in the Appendix 
on page 77.]
    One last question for you. The Micronesian Bio-Security 
Plan was developed by various Federal agencies, to include the 
DOD and DOI [the Department of the Interior], to determine how 
to address the risks of terrestrial and marine invasive species 
to the Micronesian region resulting from the buildup. Can you 
tell me how the DOD will implement the MBP [Micronesian Bio-
Security Plan] and what proactive actions the DOD will take to 
prevent new invasive species from being introduced?
    Secretary Pfannenstiel. We have a fairly elaborate plan of 
how it would work, and I would be glad to get more information 
on that to your office. I think that would probably be more 
productive than trying to walk through the various pieces of it 
here.
    [The information referred to can be found in the Appendix 
on page 78.]
    Ms. Bordallo. Very good, because we do have enough brown 
tree snakes now forever.
    General Alles, the lease for the Guam shipyard is up next 
year. General, can you address what level of readiness our 
forward-deployed ship repair capability provides PACOM?
    General Alles. Ma'am, I will have to take that for the 
record. I am not in a position to address that one. But I can 
definitely get you the answer.
    [The information referred to can be found in the Appendix 
on page 77.]
    Ms. Bordallo. Mr. Chairman, that concludes. I wanted the 
answers to those questions for the record.
    Mr. Forbes. Thank you. Feel free to supplement any of those 
answers that you have for the record.
    General, Admiral Willard when he was here last year, gave 
some testimony about the number of ships in the Chinese Navy. 
Do you have any idea how many ships the Chinese have in their 
Navy today?
    General Alles. I can comment on their modernization. The 
specific numbers, I would need to get.
    Mr. Forbes. If you can get those numbers for us and supply 
them to us.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Forbes. Mr. Schiffer, today is March 15, 2011. Ten 
years from now, do you have any idea, if we continue on the 
same building plan we are on right now, how will the number of 
submarines that we have in our Navy compare with the number the 
submarines the Chinese will have based on our projections of 
what they are building?
    Mr. Schiffer. I will have to get back to you on the record 
in terms of the exact number.
    Mr. Forbes. I understand. If you could get that number back 
to us so we can see it.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Forbes. General, you and I talked the other day, one of 
the interesting things right now, most of our strategies are 
dependent upon our forces being able to attack and then move 
back to sanctuaries where they have basically safe harbors at 
that particular point in time. But if we had a major conflict 
in the Pacific, more likely than not these safe harbors or 
sanctuaries wouldn't be available. So my question is: Do U.S. 
forces typically operate under degraded battle network 
conditions when training for operations in the Western Pacific? 
And if so, what are the key lessons we have learned from such 
training? And if not, why are we not training in this manner, 
especially since the Chinese military writings cite our battle 
networks as our Achilles heel?
    General Alles. I think one of the areas that we have 
identified that we will continue to work on is the need to be 
able to operate in missions-controlled environments, and that 
is something certainly that we have done in a robust nature in 
the past. It is an area that we need to address now and into 
the future. It is an area that is not being ignored. It is not 
an area that we don't ever practice to, but I think, like other 
issues as we look at a potential country that would be a near-
peer, we are going to have to look at the kinds of training we 
are doing and how we prepare for that kind of a situation.
    Mr. Forbes. If you could keep our subcommittee posted on 
your progress on that, we would appreciate it.
    Our Navy and Air forces, are they trained and ready to 
operated under sustained loss degradation based on space 
capabilities and capacities because we know that we see the 
Chinese perhaps looking at taking away some of those 
capabilities? Are we training to deal with that degradation if 
it were to take place?
    General Alles. Again, we are looking at that during our 
exercises. I think there is more improvement that we can gain 
in those areas, both in the type of technology we are using 
that provides a more robust space network as far as jam 
resistance, those kinds of things, and also from the standpoint 
of practicing those types of operations in degraded 
environments. There are certainly improvements that can be done 
there. I don't want to imply there that is not practiced at all 
now. That would be an incorrect statement, too.
    Mr. Forbes. My last question, maybe all three of you could 
take a bite at this at how we can do better. I want to go back 
to the very first question that I raised, and it is the fact 
that the Secretary did direct the Air Force and the Navy to 
develop an Air-Sea Battle concept to address the growing Anti-
Access/Area Denial problem, which many people feel is the most 
acute in the Western Pacific.
    We know from writings that this challenge has been emerging 
really for the better part of the last decade, and yet we had 
the instruction come out last year to develop the concept, and 
all of your testimonies today were that it was evolving. What 
takes us so long to create a concept to respond to a threat 
that we have? Any suggestions on how we can cut that timeline 
down?
    Mr. Schiffer. I think that is an excellent question, Mr. 
Chairman, and one that I would very much like to be able to 
take back and consult with some of my colleagues on so we can 
provide you with a better answer on how we might be able to be 
more nimble in our own thinking.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Forbes. I would appreciate it, and we are not pointing 
the finger at you. We are pointing the finger at us, too, and 
we want to work in a partnership so that we can respond faster. 
We would love to have that dialogue and any input you can give 
us to how we can make that work better.
    General, you have lived with this most of your career. Any 
suggestions?
    General Alles. I don't have the answer for what takes so 
long. I do think that this has come into a much better focus 
over the past few years on the direction that China has done 
with this Anti-Access/Area Denial strategy of theirs. And as it 
has come into focus, I think that is moving us toward action in 
this one area of Air-Sea Battles, and numerous other areas.
    Mr. Forbes. General, one thing I would just throw out, we 
are not just limiting it to the Anti-Access/Area Denial 
problem, it is generally when we are trying to deal with these 
concepts, sometimes it just takes us so long to get our arms 
around it. I know in many hearings that we had we were talking 
about this very problem, and we have the Department of Defense 
telling us it is no problem, it is no problem, it is no 
problem. And then it seems like everybody went to bed one night 
and woke up the next morning and said: Oh, my gosh, it is a 
problem. And so we would appreciate any insight you have from 
your years of experience on how we can make that better.
    Madam Secretary, I know, not particularly on this issue, 
but on a lot of the other issues across agencies, you have 
lived with this a long time, too. What are your suggestions on 
how we cope with it a little faster?
    Secretary Pfannenstiel. Mr. Chairman, I am not sure that I 
have any wisdom beyond what my colleagues here have offered. I 
am, as you note, relatively new to the Pentagon and the 
processes. I see dedication, I see very knowledgeable people 
who are answering questions as well as they can, and I believe 
that the interaction with Congress is strong and is positive. 
Clearly if I have any ideas on this I would be glad to share 
them with you.
    Mr. Forbes. We are about out of time. I just want to give 
our witnesses a couple of minutes to say anything that you left 
out or that you think is important or you got short-changed on 
that you didn't get to get in the record.
    Mr. Schiffer.
    Mr. Schiffer. No, Mr. Chairman, I think we have had ample 
opportunity, and thank you very much for this opportunity to 
come up and engage in this important dialogue with you.
    Mr. Forbes. Thank you, Mr. Schiffer.
    General.
    General Alles. I would just mention what we discussed in 
your office, and that is we look at this issue of Anti-Access/
Area Denial. We are in kind of a formative period here, and the 
support of Congress in working on these particular programs I 
think will be essential to addressing the issue.
    Mr. Forbes. Madam Secretary.
    Secretary Pfannenstiel. Thank you, Mr. Chairman. I would 
like to thank you and Congresswoman Bordallo for the 
opportunity to come and talk about what I see as a very 
important part of our Pacific posture, and I know Guam is one 
piece of it, but I think for many of us it is a key strategic 
piece.
    Mr. Forbes. Our doors remain open to all three of you if 
there is anything we can do to help.
    I would like to leave with Ms. Bordallo, any closing 
comments.
    Ms. Bordallo. Just a few seconds, Mr. Chairman. I want to 
thank you very much for focusing on this very important move 
for the military, probably one of the biggest in the history, I 
understand. It is going to cost our Government and the 
Government of Japan about $16 billion when all is concluded, 
and I just want to thank you very much for focusing on the 
Asia-Pacific area and its importance.
    Mr. Forbes. With that, we are adjourned. Thank you all very 
much.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 15, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 15, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5588.001
    
    [GRAPHIC] [TIFF OMITTED] T5588.002
    
    [GRAPHIC] [TIFF OMITTED] T5588.020
    
    [GRAPHIC] [TIFF OMITTED] T5588.021
    
    [GRAPHIC] [TIFF OMITTED] T5588.022
    
    [GRAPHIC] [TIFF OMITTED] T5588.023
    
    [GRAPHIC] [TIFF OMITTED] T5588.024
    
    [GRAPHIC] [TIFF OMITTED] T5588.025
    
    [GRAPHIC] [TIFF OMITTED] T5588.026
    
    [GRAPHIC] [TIFF OMITTED] T5588.027
    
    [GRAPHIC] [TIFF OMITTED] T5588.028
    
    [GRAPHIC] [TIFF OMITTED] T5588.029
    
    [GRAPHIC] [TIFF OMITTED] T5588.030
    
    [GRAPHIC] [TIFF OMITTED] T5588.031
    
    [GRAPHIC] [TIFF OMITTED] T5588.032
    
    [GRAPHIC] [TIFF OMITTED] T5588.033
    
    [GRAPHIC] [TIFF OMITTED] T5588.034
    
    [GRAPHIC] [TIFF OMITTED] T5588.035
    
    [GRAPHIC] [TIFF OMITTED] T5588.036
    
    [GRAPHIC] [TIFF OMITTED] T5588.037
    
    [GRAPHIC] [TIFF OMITTED] T5588.038
    
    [GRAPHIC] [TIFF OMITTED] T5588.039
    
    [GRAPHIC] [TIFF OMITTED] T5588.040
    
    [GRAPHIC] [TIFF OMITTED] T5588.003
    
    [GRAPHIC] [TIFF OMITTED] T5588.004
    
    [GRAPHIC] [TIFF OMITTED] T5588.005
    
    [GRAPHIC] [TIFF OMITTED] T5588.006
    
    [GRAPHIC] [TIFF OMITTED] T5588.007
    
    [GRAPHIC] [TIFF OMITTED] T5588.008
    
    [GRAPHIC] [TIFF OMITTED] T5588.009
    
    [GRAPHIC] [TIFF OMITTED] T5588.010
    
    [GRAPHIC] [TIFF OMITTED] T5588.011
    
    [GRAPHIC] [TIFF OMITTED] T5588.012
    
    [GRAPHIC] [TIFF OMITTED] T5588.013
    
    [GRAPHIC] [TIFF OMITTED] T5588.014
    
    [GRAPHIC] [TIFF OMITTED] T5588.015
    
    [GRAPHIC] [TIFF OMITTED] T5588.016
    
    [GRAPHIC] [TIFF OMITTED] T5588.017
    
    [GRAPHIC] [TIFF OMITTED] T5588.018
    
    [GRAPHIC] [TIFF OMITTED] T5588.019
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 15, 2011

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Schiffer. The United States defense industrial base is 
sufficient to meet general current and projected DOD requirements. 
However, the Department has faced capacity concerns centered on 
difficulties associated with rapidly increasing production of 
``critical'' (based on unique evolving operational scenarios) items; 
for example, those items associated with body armor, up-armoring 
vehicles, and precision-guided munitions. As the Department continues 
to improve its requirements generation process, particularly for 
contingency operations, it will provide better and timelier guidance to 
its industry partners, who will then be better able to plan and build 
their capacity accordingly. However, in circumstances where capacity 
for certain items becomes problematic for unforeseeable reasons, the 
Department has a variety of tools at its disposal to address these 
situations, such as prioritizing industry deliveries to meet the most 
critical war fighting needs first. [See page 15.]
    Mr. Schiffer. Ten years from now, China and the United States are 
likely to have roughly the same number of submarines, although with 
very different capabilities. Currently, China possesses approximately 
55 submarines, most of which are diesel-electric, and its submarine 
force is likely to grow by approximately 15 submarines in the next 10-
15 years, primarily due to the introduction of new diesel and air 
independent power (AIP) submarines. Over the next decade, the U.S. 
submarine force is projected to decline from 71 to 67 submarines.
    The U.S. Navy operates three types of submarines--nuclear-powered 
attack submarines (53 in service), nuclear-powered ballistic missile 
submarines (14 in service), and nuclear-powered cruise missile and 
special operations forces (SOF) submarines (four in service).
    The Navy's proposed FY2012 budget requests $3,232.2 million in 
procurement funding to cover the procurement cost of two additional 
attack submarines. Based on U.S. Navy projections, the total number of 
U.S. attack submarines will peak in 2013-2014 and will then decline to 
a total of 49 submarines by 2021. [See page 28.]
    Mr. Schiffer. The Air-Sea Battle concept is a ``next-step'' 
evolution in U.S. joint warfare. It builds on the extensive experience 
of the Department of the Air Force and the Department of the Navy in 
conducting joint operations together over the last twenty years. The 
2010 Quadrennial Defense Review emphasized the importance of preparing 
for the broadest possible range of conflicts, requiring continuous 
operational innovation and rebalancing. This is consistent with our 
aims as we continue to develop the Air-Sea Battle concept as an 
effective approach to serve U.S. security interests most effectively.
    In the future, the Air-Sea Battle concept will be a driver of new 
and innovative programs. The military capabilities envisioned in the 
initial Air-Sea Battle concept either exist at present or are currently 
funded programs. [See page 29.]

    General Alles. [The information was not available at the time of 
printing.] [See page 14.]
    General Alles. [The information was not available at the time of 
printing.] [See page 27.]

    Secretary Pfannenstiel. There are alternative fuel sources in the 
Pacific that could be leveraged and there exists a concern about the 
vulnerability of above-ground facilities as stated by General Alles 
during the hearing. More specific information on subject matter is 
classified in nature.
    Additional information on specific time required to replace or 
replenish fuel capacity in Guam can most appropriately be answered by 
the Department of Defense's lead activity for this project, Defense 
Logistics Agency. [See page 14.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. BORDALLO

    General Alles. [The information was not available at the time of 
printing.] [See page 27.]

    Secretary Pfannenstiel. The Department of the Navy has put in place 
strict contractual requirements for workforce health care to be 
enforced through an aggressive and coordinated oversight program 
cooperatively managed by DON and regulatory agencies including the Guam 
Department of Labor and the U.S. Department of Labor. All contractors 
are required to have plans to cover health care needs associated with 
the introduction of an off-island workforce, including detailed medical 
screening and surveillance, primary care and emergency care needs. This 
efficient and cost effective approach has been coordinated with the 
Center for Disease Control (Pacific Region), the Government of Guam 
Public Health and Social Services, Navy Medicine West and Navy Bureau 
of Medicine and Surgery (Occupational and Environmental Medicine 
Policy). During a recent visit to Guam (April 2011) by the Navy 
Medicine's Occupational and Environmental Policy Expert and Special 
Assistant for Asia-Pacific Affairs, Navy Medicine West, DON's current 
plan for addressing medical care requirements for H-2B workers was 
endorsed and supported by the private medical sector, the medical 
insurance industry, representatives of the regional CDC and the 
Government of Guam Department of Public Health.
    The Department of the Navy is committed to working with Guam health 
providers, CDC, you and your staff regarding workforce medical care on 
Guam. We will continue to review and provide feedback on amendment 
language regarding this subject, as we did prior to the committee's 
mark-up on the FY-2011 National Defense Authorization Act. [See page 
27.]
    Secretary Pfannenstiel. The Department of Navy (DON) has contracted 
with the National Invasive Species Council, the U.S. Department of 
Agriculture, the US Geological Survey, and the Smithsonian Institute to 
develop and coordinate risk assessments and prepare a Micronesian 
BioSecurity Plan (MBP) in cooperation with the U.S. Fish and Wildlife 
Service, Guam Division of Aquatic and Wildlife Resources, Commonwealth 
of the Northern Mariana Islands Division of Fish and Wildlife, and 
other interested parties. The approach will integrate techniques 
involving exclusion, detection, rapid response, and control of non-
native and invasive organisms that can be readily implemented into 
standard operating procedures, training instructions, and construction 
projects. Experts in various fields are collaborating to provide the 
best scientific decision support to develop the MBP. The MBP is still 
under development, and the final plan is anticipated in December of 
2011. After the MBP is finalized, DON will develop an implementation 
plan that will identify feasible mitigation and management actions 
associated with DOD activities. DON will implement biosecurity measures 
identified in the MBP that will reduce the risk of introduction and 
spread of invasive species via DON activities. Implementation of 
identified mitigation/management actions will be dependent on forecasts 
of the tempo and sequencing of the realignment construction effort, 
compliance with regulatory requirements, and compatibility with 
military training. [See page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 15, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The 2006 International Agreement between the United 
States and Government of Japan requires that the Government of Japan 
make ``tangible progress'' on the construction of a Marine Corps Air 
Station Futenma replacement facility in northern Okinawa before 
implementing the Guam realignment. How does the U.S. define ``tangible 
progress''? If the Government of Japan has not made ``tangible 
progress'' in Okinawa, should Congress continue funding for the Guam 
realignment?
    Mr. Schiffer. We see tangible progress on the Futenma Replacement 
Facility (FRF), not as a single specific event, but rather as a series 
of steps taken roughly in parallel between Japan and the United States, 
as spelled out in our bilateral understandings on realignment. As the 
Government of Japan makes progress on the FRF, the United States will 
take associated steps to move forward on Guam. There are a number of 
different indicators of this progress, starting with the decision on 
the runway configuration that we expect at the upcoming two-plus-two 
meeting with Japan, the issuance of the landfill permit, the 
construction of the sea wall, and progress on the landfill itself.
    An essential point of our realignment understanding with Japan is 
that preparations for facilities on Guam need to begin well in advance 
of the actual construction of the replacement facility at Camp Schwab. 
It is necessary to ensure that when we are satisfied with the progress 
Japan has made on the FRF, suitable facilities will be available on 
Guam to allow the phased relocation of Marines from Okinawa, such that 
any relocation can be sequenced to maintain unit cohesion and 
operational readiness.
    Mr. Forbes. The Japanese Prime Minister has indicated that he 
intends to ``start from scratch'' in reviewing options to relocate the 
U.S. Marines on Okinawa and has proposed a May 2010 deadline to provide 
a new basing proposal. What information can the Department of Defense 
provide regarding the status of negotiations in providing for a Marine 
Corps Air Station Futenma Replacement Facility?
    Mr. Schiffer. On May 28, 2010, the Security Consultative Committee 
(2+2) issued a Joint Statement reconfirming both governments' 
commitment to the Realignment Roadmap, and in particular, to the 
establishment of a Futenma Replacement Facility in the Camp Schwab/
Henoko location identified in the Roadmap.
    Mr. Forbes. A) The relocation of U.S. forces within South Korea has 
been postponed for several years beyond 2008. Why?
    B) Is it correct that the Yongsan portion of the relocation plan is 
now set for 2015? Are there also new dates for other elements of the 
relocation plan? How likely is it that there will be further delays 
beyond these dates?
    C) What defense capabilities will be gained or reduced from the 
relocation, and how will it improve or potentially hinder our ability 
to respond to a North Korean attack against the South?
    Mr. Schiffer. A) Both the Yongsan Relocation Plan (YRP) and the 
Land Partnership Plan (LPP) have been delayed due to challenges with 
the procurement of land in the Republic of Korea, slow construction of 
facilities, and Korean bureaucratic challenges that have delayed 
funding of projects.
    B) Yongsan Relocation Plan (YRP)- and Land Partnership Plan (LPP)-
related construction projects are scheduled for completion in 2015, 
with relocation of forces scheduled to be complete in 2016. YRP 
relocates a majority of U.S. forces and HQ United Nations Command 
activities in and around the capital city of Seoul to U.S. Army 
Garrison Humphreys. LPP relocates and consolidates U.S. forces north of 
Seoul into areas in the south and expands infrastructure at Osan Air 
Base and Camp Mujuk. The YRP/LPP initiatives were incorporated into the 
Strategic Alliance 2015 (SA 2015) plan signed by both the U.S. 
Secretary of Defense and the Republic of Korea Minister of Defense in 
October 2010. The progress of these initiatives, as well as others 
included in the SA 2015 plan, are tracked regularly through a series of 
governing committees to ensure milestones are effectively met. Any 
deviations are addressed by the next higher committee, and ultimately 
by the Secretary and Minister for adjudication if necessary.
    C) The U.S. and Republic of Korea (ROK) governments reached an 
understanding to consolidate and relocate American forces stationed in 
the ROK onto installations south of the capital city, Seoul. Prior to 
the year 2005, the United States had 107 installations in Korea. Once 
relocation is complete, the United States will utilize 49 sites, 
concentrated for the most part around two enduring hubs: a southwest 
hub and a southeast hub. The southwest hub is centered on Osan Air Base 
and U.S. Army Garrison Humphreys. It will be the future centerpiece of 
U.S. military force structure in Korea. The southeast hub will include 
installations located in the cities of Daegu, Chinhae, and Busan. This 
hub will serve as the logistics distribution center and storage 
location for wartime and contingency prepositioned stocks.
    The consolidation of forces onto two enduring hubs improves 
warfighting capabilities in a number of ways. First, the 2nd Infantry 
Division and future Korea Command will be collocated at U.S. Army 
Garrison Humphreys, improving coordination and planning between staffs 
of the two organizations. Similarly, relocating 2nd Infantry Division 
to U.S. Army Garrison Humphreys consolidates the division's subordinate 
units at a single location, increasing direct face-to-face contact 
among unit personnel while reducing the physical span of control and 
infrastructure needed to support the division. The unit is better 
postured to train and fight.
    Consolidation at two enduring hubs also enhances command and 
control and coordination. In addition to strengthening relationships 
between operational staffs of the 2nd Infantry Division and a future 
Korea Command, 2nd Infantry Division is better positioned to effect 
initial liaison and coordination during reception, staging, and onward 
movement of deploying maneuver and sustainment brigades. Early liaison 
and coordination sets the conditions to more reliable and effective 
command and control during later phases/stages of conflict. Positioning 
of the 2nd Infantry Division at U.S. Army Garrison Humphreys also 
improves tactical flexibility by posturing the division in a better 
tactical location for rapid commitment in support of either of the 
forward stationed ROK armies and corps. This position also shortens 
logistical lines during the initial phases of conflict that better 
postures the division for successful employment later.
    Consolidation also enhances the execution of noncombatant 
evacuation operations (NEO). By reducing the dispersion of 
transportation assets, movement times are cut. By separating U.S. 
forces from initial wartime threats such as North Korea's long-range 
artillery and its ground forces threatening Seoul, the vulnerability of 
these forces is reduced and their survivability enhanced. A 2nd 
Infantry Division located at U.S. Army Garrison Humphreys will be 
better able to integrate follow-on maneuver and sustainment brigades 
while not under the fire of North Korean long-range artillery. This 
factor supports the division's preparation for combat activities. 
Finally, force consolidation enhances warfighting capabilities by 
improving soldier quality of life, realization of stationing 
efficiencies, optimizes use of land in Korea, and enhances force 
protection and survivability.

    Mr. Forbes. The readiness posture of PACOM is negatively affected 
by the ongoing military operations in Iraq and Afghanistan. How 
significant is the shortage of forces and equipment required to 
effectively deal with the broad range of security concerns in PACOM's 
AOR? What does PACOM need to meet existing requirements?
    General Alles. [The information was not available at the time of 
printing.]
    Mr. Forbes. On April 5, 2009, North Korea launched a Taepo-Dong-2 
(TD-2) missile over Japan and on May 25, 2009, it conducted a second 
nuclear test. The regime has also kicked out inspectors and re-started 
its nuclear facilities. How do existing basing arrangements in South 
Korea, Japan and Guam contribute to the defense of South Korea?
    General Alles. [The information was not available at the time of 
printing.]
    Mr. Forbes. The Chinese have an extensive conventional missile 
capacity and range to strike many of our existing bases. How does the 
Department assess the adequacy of the U.S. military's capacity to 
withstand a Chinese air and missile assault on regional bases? How do 
our existing basing arrangements in South Korea, Japan and Guam serve 
to impede the growing Chinese extra-territorial ambitions? What steps 
are being pursued to further strengthen regional bases' capacity to 
survive such an assault and continue or resume operation?
    General Alles. [The information was not available at the time of 
printing.]
    Mr. Forbes. How does PACOM assess the adequacy of resources 
available to Department of Defense programs that seek to defend 
forward-deployed U.S. bases to include theater missile defense and 
early warning systems, hardened structures and hangers, air defense 
systems, and runway repair kits?
    General Alles. [The information was not available at the time of 
printing.]
    Mr. Forbes. The U.S. agreed to draw down its troops on the Korean 
peninsula from 37,000 to 25,000, but in June 2008, DOD announced that 
the drawdown would halt at 28,500 and that level would be maintained 
indefinitely. What changed? If eventually there is a peaceful 
reunification of the Korean peninsula, how will this affect U.S. troop 
requirements on the peninsula? Is there a long-term rationale for U.S. 
troop presence there?
    General Alles. U.S. Pacific Command exercises operational control 
over U.S. military forces assigned and allocated to it by the Secretary 
of Defense. In accordance with the Presidential decision of April 2008, 
the Department of Defense maintains an authorized end-strength of 
28,500 U.S. Service members in the Republic of Korea. I respectfully 
refer the Congressman to the Office of the Under Secretary of Defense 
for Policy/Assistant Secretary of Defense for Asian and Pacific 
Security Affairs for further information regarding the policy 
background of this matter.
    U.S. force posture in the Republic of Korea is tailored to meet 
current U.S. security and alliance commitments. A peaceful 
reunification of the Korean peninsula would, presumably, necessitate 
changing U.S. force posture; however, specific force requirements would 
depend on the actual security situation and on the particular missions 
assigned to U.S. Pacific Command.
    U.S. military forces on the Korean Peninsula support the U.S.-ROK 
Alliance, whose mission is to defend the Republic of Korea through a 
robust and combined defense posture. The Alliance is vital to the 
interests of both nations in securing peace and stability on the Korean 
Peninsula and in Northeast Asia.

    Mr. Forbes. The United States and Japan concluded an international 
agreement to move 8,000 Marines from Okinawa to Guam by 2014. The Guam 
Environmental Impact Statement (EIS) uses the 2014 date as a benchmark 
to complete the overall realignment. However, there are indications 
that completing the move by 2014 is unachievable, and Navy's MILCON 
Future Years Defense Program (FYDP) supports completing the move beyond 
2015. What is the target date to conclude the Marine Corps realignment 
to Guam and what are the principal impediments to completion?
    Secretary Pfannenstiel. The Record of Decision for the Guam and 
CNMI Military Realignment EIS indicated the Department was implementing 
Adaptive Program Management (APM) as a mitigation measure to ensure 
that Guam's utility infrastructure is not overstressed and significant 
environmental impacts do not occur. Through the use of APM, the pace 
and sequencing of construction projects will be adjusted. As such, the 
construction timeline and force flow of Marine Corps units into Guam 
from Okinawa will ultimately depend upon improvements to Guam's 
infrastructure capacity and proper management of environmental impacts. 
Investments are being made to increase infrastructure capacity by 
addressing improvements to utilities systems, the Port of Guam, and 
roadways, all of which will allow the construction program to ramp-up.
    We have developed an updated cost estimate and notional timeline 
for the Guam realignment and we are prepared to brief the Chairman or 
committee staff regarding these issues at their convenience.
    Mr. Forbes. What is the overall cost of the Marine Corps relocation 
from Okinawa to Guam? Does this include the expanded training 
capabilities that the Marine Corps is pursuing?
    Secretary Pfannenstiel. The Department understands Congress's 
concerns regarding the total cost of the Guam realignment and is 
committed to providing an accurate picture of current costs. We have 
developed an updated estimate and notional timeline and have offered to 
brief committee staff regarding these issues.
    Mr. Forbes. How can the Department of Defense move forward with the 
Guam realignment without having resolved Guam land acquisition issues 
that are integral to the overall Marine Corps capability? If Congress 
provided land acquisition appropriations to support training and family 
housing requirements, would the Navy pursue eminent domain to acquire 
land?
    Secretary Pfannenstiel. The projects appropriated in FY-10 and FY-
11 and those requested in FY-12 are necessary to enable subsequent 
construction. Waiting to begin military construction projects until 
after training range land acquisition issues are resolved would create 
a significant bottleneck in Guam's limited construction capacity, which 
could ultimately result in a delay the Marines' ability to relocate 
from Okinawa in fulfillment of our international agreement with Japan.
    Discussions between the Department and Guam's leaders have enabled 
the DOD to better appreciate concerns regarding issues such as access 
to cultural sites and the expansion of DOD's footprint. Senior DOD 
officials and Guam's leaders are committed to work together to resolve 
such issues. The Department has committed to four principles for 
reaching a negotiated settlement for acquiring land necessary for the 
proposed training range complex:

    <bullet>  One Guam: Address infrastructure improvements outside the 
fence that are directly related to the buildup, and work with other 
federal agencies to identify solutions for addressing Guam's needs 
indirectly or unrelated to the military realignment.

    <bullet>  Green Guam: Develop the most energy efficient base 
possible and support Guam's efforts to develop sustainable and 
renewable energy projects.

    <bullet>  Unfettered Access to Pagat Village and Cave: Conduct 
training activities in a manner which will allow access to the Pagat 
Village and Pagat Cave historical sites 24 hours per day, seven days 
per week, as it is today.

    <bullet>  Net Negative: Following the completion of the 
realignment, DOD will have a smaller footprint than it has today. This 
commitment will directly address concerns regarding an expanding DOD 
footprint on Guam. This concept is currently in the early stage of 
development. Studies will be conducted to determine if missions can be 
relocated and assess any potentially underutilized properties.

    As a result of these discussions with Guam's leaders, the Governor 
of Guam has stated publicly his willingness to discuss land use issues 
with the Department and we believe that we will be able to reach a 
negotiated agreement. We will continue to have discussions with the 
Governor and Guam Legislature with a goal of being ready to commence 
formal land negotiations once appropriate Congressional approval for 
land acquisition has been received. The Department will continue to 
update the Congress on land use matters and the status of informal 
discussions with the Government of Guam. The Navy position is and 
remains, that we seek agreement with landowners on the fair market 
value for the land, using existing authorities and processes, and thus 
the use of eminent domain will not be necessary.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. The Civil-Military Coordination Council was 
established to implement Adaptive Program Management (APM) on Guam; 
however there is still a lack of common understanding of APM's specific 
meaning for the build-up. What role do you see APM and the CMCC playing 
as the Relocation moves forward? From my understanding, the build-up is 
not the first time APM has been used however; its short timeline 
differs from previous federal projects. If a project related to the 
buildup is causing significant environmental impacts, how will the DOD 
adequately adapt given the short timeframe for the build-up?
    ``Adaptive'' means you will be using data to adjust, can you tell 
me how the DOD will be monitoring and collecting new data as projects 
move forward? If you are not collecting new data, how can you prevent 
any unforeseen environmental impacts? Can you detail what efforts are 
being taken to develop specific metrics that will help decision makers 
in the CMCC ensure the build-up does not overly burden the local Guam 
community? To what extent is the Government of Guam integrated into the 
development of these metrics?
    Secretary Pfannenstiel. Adaptive Program Management (APM) is a 
mitigation measure designed to keep the military construction effort 
within the infrastructure capabilities on Guam. With implementation of 
APM, DOD would evaluate infrastructure capacity/limitations and adjust 
the tempo and sequencing of construction activities accordingly. This 
would result in adjustments to the growth in the workforce population 
so as to not overwhelm Guam's utilities, port, roadways and other 
systems, and ultimately can result in a stretched out timeline for 
implementing the buildup. The Record of Decision for the Guam/CNMI 
Military Realignment included an initial operating charter for a Civil 
Military Coordination Council (CMCC). The CMCC, comprised of military, 
federal agency, and Government of Guam representatives, will assist in 
implementing APM. The focus of the Council will be to coordinate 
military, public, and private construction activity conducted during 
the military realignment effort. It will develop recommendations on how 
to integrate future DOD construction activity and other actions 
undertaken by Guam or federal agencies associated with the military 
realignment to avoid or reduce the potential adverse impacts on Guam's 
environment, infrastructure, public agencies, and the public at large. 
Efforts continue to finalize the CMCC charter.
    Two possible actions could result from a finding that significant 
impacts may occur in the future: 1) change the pace of construction 
(i.e. contract awards or construction start dates, and/or 2) modify the 
sequence of construction projects. Decisions regarding the pace and 
sequencing of construction remain with each participating organization 
as dictated by existing roles and authorities.
    The CMCC is comprised of multiple working groups responsible for 
developing metrics, thresholds, and trigger points that can inform 
decision-making regarding the implementation of APM. The working groups 
will exhaust all available sources for relevant data including reports, 
surveys, ongoing projects and similar sources generated by local, 
federal and other organizations.
    The Government of Guam is an integral participant in the CMCC with 
the Guam Buildup Office serving as the primary point of contact. As 
many as ten executive agencies, the University of Guam and 
representatives from several legislative offices continue to 
participate in workshops, organizational and planning meetings. As the 
need arises, DOD anticipates a dynamic environment in which other 
working groups and Guam agencies may join the effort.
    Ms. Bordallo. The Secretary of Defense laid out a framework of 
pillars for the development on Guam to accommodate the movement of 
Marines from Okinawa. The ``Net Negative'' pillar implies that the 
Department of Defense will have less land overall on the island of Guam 
after the buildup is complete than when it began. My question is 
whether or not that footprint would include leased lands under that 
plan? In other words, does DOD consider leased lands towards their 
overall footprint? Will leased land be factored in to the overall ``Net 
Negative'' sum?
    Secretary Pfannenstiel. As stated by Under Secretary Work, the 
Department understands the Guam community's concerns regarding the 
amount of land controlled by DOD. In response, we have committed to the 
Net Negative concept, which means that at the completion of the 
military buildup DOD will have a smaller footprint that it currently 
has today. If property is reserved for military use, and therefore 
unavailable for the public, we would consider that property to be part 
of our inventory regardless of the method of acquisition.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. I represent South Mississippi, a heavy military 
district where all branches of service are represented. My district has 
also seen its share of devastation due to natural disasters, most 
memorably Hurricane Katrina. Last week we saw another example of the 
destructive power of Mother Nature as Japan was hit by a major 
earthquake followed by a devastating tsunami.
    1. Almost exactly one year ago, in his testimony before the Senate 
Armed Services Committee, Admiral Willard mentioned that ``In the Asia-
Pacific, we respond to natural disasters about every 60 days.'' 
Following the recent devastation in Japan, could you comment on our 
military's readiness to respond to natural disasters in the Pacific at 
this point?
    Mr. Schiffer. 1. The United States Armed Forces are ready. We 
maintain the capabilities necessary to respond to the full range of 
contingencies that may occur in the region whether they are natural or 
man-made. In addition to being well-trained and highly capable, when it 
comes to military readiness, there is no substitute to being forward 
deployed. Our highly capable forces have a history of rapid response 
and have been present on the scene after some of the most devastating 
natural disasters to hit the Asia-Pacific region. After the 2004 Indian 
Ocean Tsunami, the 2008 Cyclone Nargis in Burma, the 2009 Typhoon that 
hit the Philippines, the 2010 Typhoon Fanapi that struck Taiwan, and 
most recently the earthquake, Tsunami, and nuclear crisis in Japan, our 
forces have shown an ability--unmatched in the region or elsewhere--to 
respond to these crises and help to save lives.
    Following the 11 March earthquake and tsunami in Japan, we launched 
Operation TOMODACHI, which enabled us to provide support to the 
Japanese Government and people. We provided continuous airlift, 
delivering goods and services to remote, hard to reach, devastated 
areas in the northern part of Japan most affected by the quake. To 
respond to challenges posed by the nuclear crisis, we deployed an 
Incident Response Force (IRF), comprised of personnel specifically 
trained to operate in contaminated environments. The IRF provided a 
rapid response capability as well as capabilities for monitoring 
support for agent detection and identification; casualty search, 
rescue, and personnel decontamination; and emergency medical care and 
stabilization of contaminated personnel.
    Our experience in Operation TOMODACHI underscores the importance of 
being forward deployed in the region and the value of partner capacity 
building as an integral part of our theater security cooperation 
activities with all of our regional allies and partners. This serves 
not only to enhance the preparedness of partner forces, but also the 
readiness of our own.
    Mr. Palazzo. 2. Do you feel that this high rate of humanitarian 
missions, particularly in the Pacific, is hurting our readiness to 
respond or plan for other, more traditional threats in the region?
    Mr. Schiffer. 2. The high operations tempo of our humanitarian 
response missions has not diminished our readiness. Quite the contrary, 
through these operations, we are able to conduct critical training of 
our forces in real-world scenarios that allow us to exercise command 
and control and interoperability. The Department of Defense maintains a 
high-level of readiness to respond to an array of 21st century threats 
and challenges. As the first decade of the 21st century taught us, the 
United States Armed Forces must remain prepared to address threats that 
range from the impacts of climate change on the environment to the 
dangers posed by global terrorism and piracy. And wherever traditional 
threats may linger, such as in the case of North Korea, we must remain 
forward deployed and maintain our capabilities, while bolstering those 
of our allies and partners.
    Mr. Palazzo. 3. Who pays for these humanitarian responses?
    Mr. Schiffer. 3. The U.S. Agency for International Development 
(USAID) is the lead federal agency for foreign disaster assistance and 
is appropriated funding to support these efforts. The Department of 
Defense may be asked to support USAID in providing foreign disaster 
relief, which is funded through the Overseas Humanitarian, Disaster, 
and Civic Aid (OHDACA) appropriation. Through OHDACA, DOD was able to 
respond to Japan's earthquake and resulting tsunami; U.S. forces 
supported U.S. operations to assist Japan with airlift support, at-sea 
search and rescue, and the provision of relief commodities.
    Mr. Palazzo. 4. What Asia-Pacific countries concern you most at 
this point and where are we lacking to respond (equipment, technology, 
manpower, money) to realistic threats from potential hot spots in the 
region?
    Mr. Schiffer. 4. Within Northeast Asia, the United States has 
concerns about North Korea. In the last 12 months, North Korea has 
attacked and sunk a ROK naval vessel, killing 46 sailors; publicly 
revealed a uranium enrichment program in contravention of multiple UN 
Security Council Resolutions; and launched an artillery attack that 
killed both Republic of Korea (ROK) Marines and civilians. These are 
examples of the type of destabilizing actions of concern to the United 
States and reasons why we need a forward-deployed presence in the Asia-
Pacific area.
    The United States also continues to have concerns about China's 
military modernization program. As China's economy has grown, it has 
understandably invested in its military. However, the United States 
continues to have concerns about the lack of transparency from China 
regarding its capabilities and its intentions. This is something we 
discuss with the PRC regularly, and on which we hope to see continuing 
progress over time.
    There are a range of non-traditional security threats in Asia that 
also concern the United States. These include proliferation prevention, 
countering the impacts of climate change, and, as we have seen most 
recently in Japan, responding to disasters.
    As we plan and prepare for a range of possible uses of the U.S. 
Armed Forces, we have worked--and will continue to work--with our 
regional Allies and partners to maintain peace and ensure stability 
throughout Asia. For example, we intend to enhance our forward presence 
in the Pacific as it is a critical region to long-term U.S. economic 
security. We are investing in base resiliency to protect critical 
infrastructure and also developing new concepts of operation for how we 
will project power when challenged by emerging capabilities in the 
future.
    We will continue working with Japan to implement the bilateral 
Realignment Roadmap and relocate 8,000 Marines from Okinawa to Guam in 
order to offer strategic flexibility, enhance contingency response 
capabilities, and improve peacetime engagement.
    We will enhance the readiness of our forces in Korea with Tour 
Normalization. This initiative will further our long-term commitment to 
provide greater stability for forward-stationed service members and 
their families. We will also continue transition of wartime operational 
control to South Korea in December 2015. The ROK and the United States 
will establish separate, complementary national commands consistent 
with the ROK-U.S. Mutual Defense Treaty and focused on the defense of 
the ROK.
    Mr. Palazzo. 5. If we were to face a threat from China, would it be 
more beneficial for our marines to be in Japan or Guam?
    Mr. Schiffer. 5. Our bases across Asia, including in Japan and in 
Guam as well as our rotational forces and ship deployments, contribute 
to a U.S. defense posture in Asia that is becoming more geographically 
distributed, operationally resilient, and politically sustainable. In 
addition to being well-trained and highly capable, when it comes to 
military readiness there is no substitute to being forward deployed. 
There should be no mistaking the importance of U.S. military power as 
one of the essential elements of our strategy for protecting our 
national interests in the Asia-Pacific region.
    Our realignment agreement with Japan is intended to ensure a stable 
basing arrangement for our U.S. Forces in Japan, while at the same time 
addressing longstanding local concerns about a substantial presence in 
the relatively small island of Okinawa. Relocating a portion of the 
Marines to Guam helps ensure that we meet objectives while retaining 
capable and sustainable posture.
    Guam is becoming a strategic hub for our presence in Asia, helping 
to ensure the resiliency and geographical distribution that we seek. 
Our Marine Forces will be configured in the most operationally 
effective manner consistent with our commitments to our partners and 
allies in the region.
    The Department of Defense evaluates our global posture on an 
ongoing basis to position our forces most effectively to maintain 
deterrence and contingency response capabilities, and to shape the 
security environment in ways that best strengthen stability, peace, and 
prosperity for the region.
    Mr. Palazzo. 6. Do you believe that Japan wants us to demobilize 
our Marines?
    Mr. Schiffer. 6. I believe the Government of Japan recognizes the 
importance of the US-Japan Mutual Defense Treaty to the security of 
Japan, and the critical contribution of the forward-stationed US Marine 
Corps forces to fulfilling that commitment. Senior Japanese leaders, 
including Prime Minister Kan, have in the last six months made several 
public statements regarding the central importance of the U.S. force 
presence in Japan to regional stability and the defense of our nation. 
They recognize that the Marines provide an essential element of that 
presence. The capabilities and responsiveness of the Marines forward-
deployed to Japan was highlighted to the Japanese public by their high-
profile in the response effort following the 11 March earthquake and 
tsunami.
    Even after the movement of some Marines to Guam, the realignment 
agreement with Japan will keep approximately 10,000 Marines on Okinawa, 
and another 3,500 Marines on mainland Japan.
    A true sign of the value Government of Japan places on the Marine 
Corps is their willingness to fund nearly $3 billion towards the 
construction of some of the facilities on U.S. territory, in Guam, for 
the exclusive use of the Marines. As then Defense Minister Ono 
explained at the time of the agreement, doing so helps to ``maintain 
the deterrence, while reducing the burden.''
    The Government of Japan has also committed to providing an 
additional $3 billion in financing for utility improvements on Guam and 
family housing for Marines.
    Mr. Palazzo. 7. In 2009 the U.S. imported over 220 bilion dollars 
in goods from China, over double the imports of any other western 
nation. Do you believe that this U.S. consumer behavior is actually 
fueling China's military buildup?
    Mr. Schiffer. 7. China's leaders can draw from a diverse range of 
sources to support PLA modernization, including: domestic defense 
investments, indigenous defense industrial development, a growing 
research and development and science and technology base, dual-use 
technologies, and foreign technology acquisition. Although the United 
States currently imports more in goods from China than China imports 
from the United States, China has committed to expanding its domestic 
consumption and imports in order to promote a more balanced trade 
relationship with the United States.

    Mr. Palazzo. I represent South Mississippi, a heavy military 
district where all branches of service are represented. My district has 
also seen its share of devastation due to natural disasters, most 
memorably Hurricane Katrina. Last week we saw another example of the 
destructive power of Mother Nature as Japan was hit by a major 
earthquake followed by a devastating tsunami.
    1. Almost exactly one year ago, in his testimony before the Senate 
Armed Services Committee, Admiral Willard mentioned that ``In the Asia-
Pacific, we respond to natural disasters about every 60 days.'' 
Following the recent devastation in Japan, could you comment on our 
military's readiness to respond to natural disasters in the Pacific at 
this point?
    General Alles. USPACOM is able to respond to natural disasters 
through detailed understanding of the region and potential requests 
through the following: 1) Understanding the regional perspective, 2) 
Joint response, 3) Force availability, and finally understanding of 
funding to support Host Nation requests, military response, and return 
to Host Nation, Non Governmental Organizations, and other efforts upon 
our exit.

    1. Regional Perspective: USPACOM is divided into 4 regions: 
Northeast Asia, Central Asia, Southeast Asia, and South Asia. Northeast 
Asia: North Korea and potential need for FHA/HADR may arise from 
natural or manmade disasters. Disaster in this affected state would 
cause great concern because of ability to interact, visibility, and 
other concerns that naturally arise. Central Asia: China. Although 
disasters in China have occurred since 2009, access is limited and 
typical requests are in the form of funding or spare parts for military 
hardware. Southeast Asia: We have seen significant improvement within 
the Philippines and their ability to respond to FHA. Additional support 
is still required for Indonesia, but access is not always guaranteed, 
granted, or requested. As seen in 2007, Burma and associated relief is 
problematic. Lastly, South Asia: Concern and planning has been focused 
on the Government of Nepal (GON) due to its geographical isolation and 
recent predicative earthquake models that suggest potential earthquake 
on the scale of Haiti 2010. Just recently, USPACOM has concluded 
strategic and operational level planning to address these concerns.
    Refinements are being made through tactical planning to best 
support GON and help mitigate potential disaster through leveraging 
regional neighbors, international and non-governmental organizations, 
and United Nations support. In summary, countries that have adversarial 
relationships with USG are the most problematic to support and provide 
FHA and HA/DR.

    2. Joint Response: USPACOM forces are capable through joint effort 
and unity of command to execute Foreign Humanitarian Assistance (FHA)/
Humanitarian Assistance/Disaster Relief (HADR) from the strategic to 
tactical level. Natural disasters that occur in our Area of 
Responsibility (AOR) are frequent, but PACOM readiness is not adversely 
affected. Although FHA/HADR is not a trained military skill set, it is 
inherent to all the services. To mitigate strain on force readiness, 
USPACOM employs a variety of forces ``tailored'' for response related 
to the scope of the disaster.
    Common to all disaster response from USPACOM are the following: 
Command and Control, tailored forces, legal authorities, funding, and 
ability to effectively/efficiently transfer response to appropriate 
Host Nation, International Organizations, or Non Government 
Organizations.
    Operations such as TOMODACHI are unique. The Japan Disaster of 
March 2011 incorporated an earthquake, tsunami, and nuclear disaster 
and increased the aperture for response and need to best support our 
alliance with Japan. Operation TOMODACHI incorporated FHA, Foreign 
Consequence Management (FCM), and Department of State (DOS) Voluntary 
Authorized Departure (VAD). In each case USPACOM forces were prepared, 
able to quickly respond and adapt to the natural and manmade disaster, 
while bolstering and strengthening our alliance with Japan.

    3. Force Availability: FHA and HA/DR are inherent to USPACOM 
forces. As stated, although FHA and HA/DR skills are not a skill set 
specifically trained by the services, our subordinate units understand 
the importance and strategic implications to respond with accuracy, 
effectiveness, and compassion to the Host Nation (RN) affected. 
Additionally, our response within our AOR signifies to our Allies and 
Partners our commitment to the region. Conversely, our response in the 
AOR leverages our potential adversaries and provides strong strategic 
communication throughout the region. In short, we do not just respond 
with ``monetary'' assistance, if requested, we provided a tailorable 
and scalable joint force to support the affected host nation, thus 
improving our position and alliances within the AOR.

    4. Funding: With respect to monetary assistance, Humanitarian 
Responses are paid for through USAID/OFDA. The Host Nation (RN) must 
request DOD support through the Ambassador or American Embassy. Upon 
approval and request of DOD forces from DOS, funding for HA/DR or FHA 
commences. Caveat: DOD forces may initiate crisis response and HA/DR or 
FHA with a 72 hour Vocal Command, IOT safeguard lives, alleviate human 
suffering, and mitigate great property damage.
    Simultaneously, as funding is being approved and adjudicated, the 
Disaster Response Team (DART) from DOS or military equivalent may be 
vectored to the HN IOT to provide initial assessment, scope of the 
disaster, and potential cost. As first responders work under the first 
72 hours, additional authorities and funding must be approved by USAID/
OFDA and OSD. The funding approved outlines the military support that 
will be provided by the USPACOM to the Host Nation. Typically, funding 
will support helicopter lift, food, water, shelter, and other 
consumable items. Modification of funding may be requested if the 
disaster warrants. As funding dissipates, USPACOM anticipates departure 
of tailored forces and enables transfer back to the Host Nation or Non 
Governmental Organizations or other efforts IOT for our forces to reset 
the force posture and prepare for other potential crisis or 
contingencies.

    Mr. Palazzo. 2. Do you feel that this high rate of humanitarian 
missions, particularly in the Pacific, is hurting our readiness to 
respond or plan for other, more traditional threats in the region?
    General Alles. The recovery effort in Japan was a first-class 
effort which underscored the United States' commitment to Japan, one of 
our most important regional allies. United States Pacific Command 
(USPACOM), with help from the United States Interagency, was able to 
provide humanitarian assistance to Japan without impacting our 
capability to support other potential operations or contingencies. The 
Japan Self Defense Force's (JSDF) ability to quickly respond to the 
disaster and integrate U.S. Force support into its efforts was 
impressive. U.S. assistance and assets were vital to the rapid and 
successful implementation of disaster response measures, the voluntary 
departure of American Citizens and the timely and effective execution 
of nuclear response and cleanup procedures. This disaster, and the 
effective coordination of relief efforts between USPACOM, the United 
States Government and the Government of Japan, provided a valuable 
platform for us to exercise our rapid response capability for 
emergencies and disasters and to improve bilateral processes with a key 
ally, Japan. Throughout Operation TOMODACHI, USPACOM had the ability to 
quickly redirect forces, if required, to other areas in the Pacific. 
Absent a large on-going crisis in the Pacific Area of Operations, 
USPACOM is positioned to accomplish a variety of humanitarian 
operations without having an immediate, adverse effect on its readiness 
to respond to or plan for traditional threats in the region.
    Mr. Palazzo. 3. Who pays for these humanitarian responses?
    General Alles. USD (P) is the primary stakeholder in DOD for 
humanitarian response with USG HA/DR issues primarily managed by USAID. 
Overseas Humanitarian Disaster and Civic Aid (OHDACA) funding as 
approved by USD (P) is utilized to support incremental costs associated 
with military humanitarian assistance operations.
    Mr. Palazzo. 4. What Asia-Pacific countries concern you most at 
this point and where are we lacking to respond (equipment, technology, 
manpower, money) to realistic threats from potential hot spots in the 
region?
    General Alles. [The information was not available at the time of 
printing.]
    Mr. Palazzo. 5. If we were to face a threat from China, would it be 
more beneficial for our marines to be in Japan or Guam?
    General Alles. [The information was not available at the time of 
printing.]
    Mr. Palazzo. 6. Do you believe that Japan wants us to demobilize 
our Marines?
    General Alles. The Marines that participated in the rescue and 
relief efforts following the earthquake and the resulting tsunami and 
nuclear incident have returned to their normal duties. Their ability to 
react swiftly following these events was a direct result of being 
forward based in Japan. Local reaction to the efforts of the Marines, 
and all the participating members of our other services in Operation 
TOMODACHI, was overwhelmingly positive. While there will always be 
opponents to the forward basing of our forces, this event provided a 
tangible domestic example of the value of our forward military presence 
in Japan and highlighted the strength of our alliance. The Government 
of Japan strongly supports the presence of U.S. military forces in 
Japan and their commitment to the defense of their homeland and our 
fulfillment of obligations under the Treaty of Mutual Cooperation and 
Security.
    Mr. Palazzo. 7. In 2009 the U.S. imported over 220 bilion dollars 
in goods from China, over double the imports of any other western 
nation. Do you believe that this U.S. consumer behavior is actually 
fueling China's military buildup?
    General Alles. This is not PACOM's area of expertise. I would defer 
to the U.S. Treasury or Department of Commerce for response.

    Mr. Palazzo. 1. Do you believe that Japan wants us to demobilize 
our Marines?
    Secretary Pfannenstiel. United States Pacific Command (US PACOM) is 
the appropriate organization to respond to questions about military 
strategy in the Asian-Pacific region.
    Mr. Palazzo. 2. If we were to face a threat from China, would it be 
more beneficial for our marines to be in Japan or Guam?
    Secretary Pfannenstiel. United States Pacific Command (US PACOM) is 
the appropriate organization to respond to questions about strategic 
military capabilities in the Asian-Pacific region.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
